        AUDIT OF THE

 OFFICE OF JUSTICE PROGRAMS

NATIONAL INSTITUTE OF JUSTICE

COOPERATIVE AGREEMENTS WITH

    AKELA, INCORPORATED

 SANTA BARBARA, CALIFORNIA


   U.S. Department of Justice

 Office of the Inspector General

          Audit Division



  Audit Report GR-90-13-002

         January 2013

                            AUDIT OF THE

                     OFFICE OF JUSTICE PROGRAMS

                    NATIONAL INSTITUTE OF JUSTICE

                    COOPERATIVE AGREEMENTS WITH

                        AKELA, INCORPORATED

                     SANTA BARBARA, CALIFORNIA


                          EXECUTIVE SUMMARY


      The U.S. Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of two cooperative agreements
(2007-RG-CX-K016 and 2009-SQ-B9-K113) awarded by the Office of Justice
Programs (OJP), National Institute of Justice to AKELA, Incorporated
(AKELA), located in Santa Barbara, California. 1 The purpose of both
agreements was to fund development of a portable radar system, which
would provide law enforcement with the capability to detect individuals,
behind a wall from 30 meters away. OJP awarded AKELA a total of
$1,956,985 under both agreements. As of December 2011, AKELA reported
agreement-related expenditures totaling $949,990 (95 percent) of the 2009
award, and $956,995 (100 percent) of the completed 2007 award. For the
2009 agreement our audit covered expenditures totaling $219,730 for the
program period beginning September 2009 through our July 19, 2010,
entrance conference. For the 2007 agreement, our audit covered the
$956,995 in expenditures from September 2007 through the agreement’s
administrative closeout completed in July 2010.

      The purpose of our audit was to determine whether costs claimed
under cooperative agreements 2007-RG-CX-K016 and 2009-SQ-B9-K113
were allowable, reasonable, and in accordance with applicable laws,
regulations, guidelines, and terms and conditions of the cooperative
agreements. The objective of our audit was to review performance in the
following areas: (1) internal control environment; (2) drawdowns;
(3) program income; (4) expenditures including payroll, fringe benefits,
indirect costs, and accountable property; (5) matching; (6) budget
management; (7) monitoring of sub-recipients and contractors;
(8) reporting; (9) award requirements; (10) program performance and
accomplishments; and (11) post end date activity. We determined that
program income, matching, and monitoring of sub-recipients were not
applicable to the cooperative agreements we audited.

      1
         The American Recovery and Reinvestment Act of 2009 (Recovery Act) funded
cooperative agreement 2009-SQ-B9-K113.
       Based on our audit testing, we determined that AKELA did not comply
with all of the cooperative agreement requirements we tested, thereby
resulting in net questioned costs of $1,906,985. Specifically, we found the
following exceptions:

      •	 We noted that as of our entrance conference, AKELA had not
         obtained a financial and compliance audit for fiscal year (FY) 2007
         or on a bi-annual basis as required by the cooperative agreements’
         special conditions. 2

      •	 We identified significant internal controls weaknesses that adversely
         affected AKELA’s ability to safeguard award funds and assets.
         Specifically, AKELA lacked written policies and procedures for key
         processes such as disbursements, petty cash, procurement, and
         receipt of goods. AKELA also lacked adequate segregation of record
         keeping and cash handling or custodial duties. In particular, it was
         noted that blank checks may be signed in advance for use by the
         office manager during the absence of the authorized signer.

      •	 AKELA’s accounting records contained discrepancies including
         inconsistencies in the agreement-related balance sheet and income
         statements.

      •	 AKELA improperly drew down, more than 10 days in advance,
         $83,056 in award funds that it spent on expenditures that did not
         relate to the two cooperative agreements. According to AKELA’s
         President, he directed the drawdown in order to cover payroll
         expenditures for the entire company and not just the payroll
         relating to the agreements.

      •	 Direct agreement expenditures charged to the agreement in the
         amount of $22,142 were found to be unallowable, unapproved, or
         unsupported. Specifically, we found the following issues:

          o	 $1,025 in unapproved salary and fringe benefit costs for
             agreement-related personnel timesheets, which were not
             authorized by the company’s President in accordance with
             AKELA’s policies;



      2
        After we began our audit, AKELA hired a firm to perform a financial and
compliance audit of its FY 2009 operations. The report, issued in February 2011, expressed
an unqualified opinion, and identified two significant deficiencies in internal controls.



                                          - ii –
           o	 $19,970 in unsupported expenditures, which in part includes
              consulting fees, outside services, travel expense, parts, and
              equipment; and

           o	 $1,147 in unallowable profits for radar arrays.

       •	 Indirect agreement expenditures charged to the agreement in the
          amount of $82,476 were found to be unallowable and unapproved. 3
          Specifically, we found the following issues:

           o	 $56,147 in indirect costs in excess of OJP approved indirect cost
              rates;

           o	 $67,787 in indirect costs for unallowable prior period costs,
              which included salaries and fringe benefits paid to AKELA’s
              personnel prior to the agreement period;

           o	 indirect agreement expenditures for lunches, proposals and
              bonuses, totaling $72,982, were found to be unallowable; and

           o	 without OJP’s approval, AKELA increased indirect expenditures
              by $82,476 for the 2007 award. 4

       •	 One item of accountable property was not documented in
          compliance with property management requirements.

       •	 Of the 14 Federal Financial Reports (FFR) filed with OJP, 6 were
          filed in an untimely manner between 1 and 3 days late and 8 of the
          14 FFRs submitted were inaccurate. One FFR materially overstated
          the period expenditures by $71,248. 5

       •	 AKELA does not have policies and procedures to monitor its
          contractors as required.

       3
          Unallowable indirect costs were consolidated as $82,476 to prevent duplication of
questioned costs among recommendations. Throughout the report each questioned indirect
cost will be discussed at its full amount with an adjustment to remove duplication in the
Schedule of Dollar Related Findings in Appendix II.
       4
          According to 28 C.F.R Part 70, grantees are required to obtain prior approval for
transfers from the direct to indirect cost category.
       5
          In October of 2009, the financial reporting requirement for grantees transitioned
from quarterly Financial Status Reports (FSRs) to quarterly FFRs. Throughout the report,
we refer to both report formats as FFRs.



                                           - iii –
     •	 AKELA has not completed two key award goals: (1) law
        enforcement evaluation of the radar and (2) obtain Federal
        Communications Commission approval of the radar system for use
        by law enforcement.

      Based on the findings related to AKELA, we made 17 recommendations
to OJP. These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objective, scope, and
methodology are discussed in Appendix I. Our Schedule of Dollar-Related
Findings is located in Appendix II.

      We discussed the results of our audit with officials from AKELA, and
have included their comments in the report, as applicable. In addition, we
requested from Anchorage and OJP written responses to a draft copy of our
audit report. We received those responses and they are found in
Appendices III and IV, respectively. Our analysis of those responses and the
status of the recommendations are found in Appendix V.




                                   - iv –
                                TABLE OF CONTENTS


INTRODUCTION ................................................................................ 1

       Recovery Act ...............................................................................2

       Background .................................................................................2

       Audit Approach ............................................................................5



FINDINGS AND RECOMMENDATIONS................................................ 7

       Internal Control Environment.........................................................7

       Drawdowns ............................................................................... 14

       Agreement Expenditures ............................................................. 15

       Budget Management and Control ................................................. 25

       Reporting .................................................................................. 26

       Compliance with Additional Award Requirements............................ 32

       Program Performance and Accomplishments.................................. 33

       Monitoring of Sub-recipients and Contractors................................. 34

       Post End Date Activity................................................................. 35

       Conclusion................................................................................. 36

       Recommendations ...................................................................... 37

`
APPENDICES:
I.	    OBJECTIVE, SCOPE, AND METHODOLOGY ............................... 39

II.	   SCHEDULE OF DOLLAR-RELATED FINDINGS ........................... 41

III.	 GRANTEE RESPONSE .............................................................. 42

IV.	   DEPARTMENT OF JUSTICE RESPONSE..................................... 61

V.	    OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND SUMMARY

       OF ACTIONS NECESSARY TO CLOSE THE REPORT ................... 66

                              AUDIT OF THE

                       OFFICE OF JUSTICE PROGRAMS

                      NATIONAL INSTITUTE OF JUSTICE

                      COOPERATIVE AGREEMENTS WITH

                          AKELA, INCORPORATED

                       SANTA BARBARA, CALIFORNIA


                                 INTRODUCTION


      The U.S. Department of Justice Office of the Inspector General (OIG),
Audit Division, has completed an audit of two cooperative agreements
(2007-RG-CX-K016 and 2009-SQ-B9-K113) awarded by the Office of Justice
Programs (OJP), National Institute of Justice (NIJ) to AKELA, Incorporated
(AKELA), located in Santa Barbara, California. 1 The purpose of both
agreements was to fund development of a portable radar system, which
would provide law enforcement with the capability to detect individuals,
behind a wall from 30 meters away. As shown in Exhibit 1, OJP awarded
AKELA a total of $1,956,985 under both agreements. As of December 2011,
AKELA reported related expenditures totaling $949,990 (95 percent) of the
2009-SQ-B9-K113 award, and $956,995 (100 percent) of the completed
2007-RG-CX-K016 award. For the 2009 agreement our audit covered
expenditures totaling $219,730 for the program period beginning September
2009 through our July 19, 2010, entrance conference. For the 2007
agreement, our audit covered the $956,995 in expenditures from September
of 2007 through the agreement’s administrative closeout completed in July
2010.

                                         EXHIBIT 1

                  NIJ COOPERATIVE AGREEMENTS WITH AKELA

                                      AWARD     AWARD                        AWARD
                  AWARDS            START DATE END DATE 2                    AMOUNT
   2007-RG-CX-K016             Initial        08/01/07      07/31/08     $    493,551
   2007-RG-CX-K016         Supplemental       08/01/07      01/31/10          463,444
   2009-SQ-B9-K113         Recovery Act       08/01/09      04/30/12          999,990
   Total                                                                 $1,956,985
 Source: OJP

      1
        Cooperative agreement 2009-SQ-B9-K113 was funded by the American Recovery
and Reinvestment Act of 2009.
      2
          The Award End Date includes all time extensions that were approved by OJP.
      The purpose of our audit was to determine whether costs claimed
under cooperative agreements 2007-RG-CX-K016 and 2009-SQ-B9-K113
were allowable, reasonable, and in accordance with applicable laws,
regulations, guidelines, and terms and conditions of the cooperative
agreements. The objective of our audit was to review performance in the
following areas: (1) internal control environment; (2) drawdowns;
(3) program income; (4) expenditures including payroll, fringe benefits,
indirect costs, and accountable property; (5) matching; (6) budget
management; (7) monitoring of sub-recipients and contractors;
(8) reporting; (9) award requirements; (10) program performance and
accomplishments; and (11) post end date activity. We determined that
program income, matching, and monitoring of sub-recipients were not
applicable to the two cooperative agreements we audited.

Recovery Act

      On February 17, 2009, the President signed the American Recovery
and Reinvestment Act of 2009 (Recovery Act) into law. The purposes of the
Recovery Act were to: (1) preserve and create jobs and promote economic
recovery; (2) assist those most impacted by the recession; (3) provide
investments needed to increase economic efficiency by spurring
technological advances in science and health; (4) invest in transportation,
environmental protection, and other infrastructure that would provide long
term economic benefits; and (5) stabilize state and local government
budgets in order to minimize and avoid reductions in essential services and
counterproductive state and local tax increases.

      The Recovery Act provided $787 billion for tax cuts, education, health
care, entitlement programs, contracts, grants, and loans. Of this amount,
the Department of Justice received $4 billion in Recovery Act funds.
Specifically, OJP received $2.7 billion of the $4 billion to administer through
a variety of grant programs. OJP’s NIJ was responsible for awarding and
administering $10 million in Recovery Act funding, of which amount, AKELA
received just under $1 million with its 2009 agreement. Recipients of
Recovery Act funds are required to report on a quarterly basis to
FederalReporting.gov on how they have spent their Recovery Act funds and
the number of jobs created or saved.

Background

      OJP’s mission is to increase public safety and improve the fair
administration of justice through innovative leadership and programs. OJP’s
bureaus and offices develop and fund programs to form partnerships among
federal, state, and local government officials in an effort to improve criminal

                                     -2­
justice systems, increase knowledge about crime, assist crime victims, and
improve the administration of justice in America. Specifically, NIJ is the
research, development, and evaluation agency within OJP and works to
provide objective, independent, evidence-based knowledge and tools to
meet the challenges of crime and justice, particularly at the state and local
levels.

AKELA, Incorporated

      AKELA is a research and development firm whose business focus is the
creation of technological products and services for the military, security
agencies, and law enforcement. AKELA was incorporated in California in
1993, and is a small, closely held company with fewer than 20 employees.
In addition to NIJ, AKELA’s customers are mostly federal agencies.
According to AKELA, about 98 percent of its 2010 revenues came from
federal agencies, such as:

      •	 Defense Advanced Research Projects Agency;
      •	 U.S. Air Force Rome Laboratory;
      •	 U.S. Army Communications-Electronics Research, Development,
         and Engineering Center;
      •	 U.S. Navy’s Naval Facilities Engineering Service Center; and
      •	 Department of Transportation Federal Aviation Administration Office
         of Aviation Security.

      In addition, AKELA has been a subcontractor on government contracts
with the Science Applications International Corporation, Toyon Research
Corporation, and Raytheon Company. Besides the two NIJ agreements we
audited, AKELA has had three previous awards that were funded directly or
indirectly by the NIJ. 3 Four of the five NIJ awards to AKELA have carried the
common purpose of developing a through-the-wall imaging system utilizing
radar.




      3
          Prior NIJ funded awards include one award funded solely by the NIJ and two
funded with NIJ assistance through the Air Force Research Laboratory (AFRL). Award
details are as follows: (1) NIJ award 1997-IJ-CX-K013 for Demonstration of Concealed
Weapons Detection System Using Electromagnetic Resonances (1997 – 2000, $741,096),
(2) AFRL award F30602-00-C-0205 for Through-the-Wall Imaging Radar (2000 – 2002), and
(3) AFRL award F30602-03-C-0085 for a Random Array Through-the-Wall Imaging Sensor
(2004 - 2005).


                                        -3­
Through-the-Wall Standoff Detection and Tracking of Individuals

       The purpose of both NIJ agreements that we audited was to fund the
development of a portable radar system, which would provide law
enforcement with the capability to deploy the unit more than 30 meters from
a wall and detect individuals, on the other side of the wall or within a room.
The NIJ agreements stipulated that the device should weigh less than
15 pounds and cost less than $5,000. The imagery this device provides
would improve law enforcement situational awareness during tactical
situations, as for example, a hostage situation.

       The 2007 agreement was authorized by the Omnibus Crime Control
and Safe Streets Act of 1968 and funded through the Justice Assistance
Grant Program. Before receiving the 2007 agreement, AKELA had been
funded by the U.S. Army to develop a similar radar system. With the 2007
agreement, AKELA was expected to capitalize on the U.S. Army’s investment
in this technology and convert it to law enforcement use. Phase one of the
2007 agreement included the following goals:

      •	 design the through-the-wall detection system for low cost
         manufacturing and packaging,

      •	 develop a law enforcement friendly graphical user interface, and

      •	 obtain Federal Communications Commission (FCC) authorization of
         the radar product for use by law enforcement.

      Phase two of the 2007 agreement included the following goals:

      •	 reduce the weight of the through-the-wall detection system to no
         more than 15 pounds,

      •	 refine the law enforcement friendly graphical user interface, and

      •	 incorporate an all-weather case for easy transport.




                                    -4­
      The 2009 agreement was authorized by the Recovery Act as well as
the Omnibus Crime Control and Safe Streets Act of 1968 and funded
through the Edward Byrne Memorial Justice Assistance Grant Program. 4 The
2009 agreement tasked AKELA with the same goals that were part of the
2007 agreement, including the development of a low cost, FCC compliant,
robust standoff imaging system to detect individuals on the other side of
walls. Further, the NIJ notified AKELA that the FCC certification of the
product should be AKELA’s primary focus under the 2009 agreement.

Audit Approach

     We tested compliance with what we considered to be the most
important conditions of the agreements. The criteria we audited against are
found in the OJP Financial Guide, award documents, Code of Federal
Regulations, Office of Management and Budget (OMB) Circulars, the
Recovery Act, and Federal Acquisition Regulation. Specifically, we tested:

       •	 Internal Control Environment – to determine whether the
          internal controls in place for the processing and payment of funds
          were adequate to safeguard the funds awarded to AKELA and
          ensure compliance with the terms and conditions of the NIJ
          cooperative agreements.

       •	 Drawdowns – to determine whether drawdowns were adequately
          supported and if AKELA was managing receipts in accordance with
          federal requirements.

       •	 Expenditures – to determine whether costs charged to the NIJ
          cooperative agreements, including payroll, fringe benefits, and
          indirect costs, were accurate, adequately supported, allowable,
          reasonable, and allocable. In addition, we tested expenditures
          related to the purchase of accountable property and equipment to
          determine whether AKELA recorded accountable property and
          equipment in its inventory records, identified it as federally funded,
          and utilized the accountable property and equipment consistent
          with the NIJ cooperative agreements.


       4
          Section 506 of Title I, Part E, Subpart 1 of the Omnibus Crime Control and Safe
Streets Act of 1968, as amended, provides for the reservation of funds under the Edward
Byrne Memorial Justice Assistance Grant Program for, among other things, "use by the
National Institute of Justice in assisting units of local government to identify, select,
develop, modernize, and purchase new technologies for use by law enforcement ....”
42 U.S.C. 3756.


                                           -5­
     •	 Budget Management and Control – to determine whether there
        were deviations between the amounts budgeted and the actual
        costs for each category.

     •	 Monitoring of Sub-Recipients and Contractors – to determine if
        AKELA provided adequate oversight and monitoring of its sub-
        recipients and contractors.

     •	 Reporting – to determine if the required financial, programmatic,
        and Recovery Act reports were submitted on time and accurately
        reflected award activity.

     •	 Compliance with Additional Award Requirements – to
        determine whether AKELA complied with award guidelines, special
        conditions, and solicitation criteria.

     •	 Program Performance and Accomplishments – to determine
        whether AKELA made a reasonable effort to accomplish stated
        objectives.

     •	 Post End Date Activity – to determine, for the NIJ cooperative
        agreements that had ended, whether AKELA complied with post end
        date requirements.

       The results of our audit are discussed in detail in the Findings and
Recommendations section of this report. We discussed the results of our
audit with officials from AKELA, and we have included their comments in the
report, as applicable. This report contains 17 recommendations to OJP to
address findings that we identified. Our audit objective, scope, and
methodology are discussed in Appendix I. Appendix II contains a schedule
of dollar-related findings.




                                   -6­
                 FINDINGS AND RECOMMENDATIONS

              We determined that AKELA did not comply with
              seven of the nine essential agreement requirements
              that we tested. We found: (1) a lack of sufficient
              and appropriate internal controls for authorization,
              recording, and custody of funds; (2) unauthorized
              changes to the indirect costs budget category;
              (3) unsupported, late, and inaccurate drawdowns;
              (4) unsupported and unallowable expenditures
              including disallowed costs, unapproved increases to
              indirect cost rates, and accountable property;
              (5) inaccurate and late Federal Financial Reports,
              Progress Reports, and Recovery Act Reports;
              (6) deficiencies in two key areas of program
              performance and accomplishments; and
              (7) insufficient monitoring of contractors. As a result
              of these deficiencies, we questioned $1,906,985 in
              expenditures which represents roughly 97 percent of
              the total agreement awards. 5

Internal Control Environment

      We reviewed AKELA’s accounting policies and procedures, and financial
management system to assess AKELA’s risk of non-compliance with laws,
regulations, guidelines, and the terms and conditions of the NIJ cooperative
agreements. We also interviewed AKELA’s management and staff, observed
accounting activities, and performed transaction testing to further assess
risk. Prior to our fieldwork in July 2010, we were unable to review the
completed financial audit of AKELA, as AKELA had not been previously
audited as required. On February 28, 2011, AKELA provided us with a
completed financial audit for the year ending December 31, 2009. Our
review of the completed audit is discussed below.

      While our audit did not assess AKELA’s overall system of internal
controls, we did review the internal controls of its financial management
system that were specifically related to AKELA’s management of the NIJ
cooperative agreement funds. As a result, we identified internal control


       5
          The Inspector General Act of 1978, as amended, contains our reporting
requirements for questioned costs and funds put to better use. However, not all findings
are dollar-related. See Appendix II, for a breakdown of our dollar-related findings and for
the definition of questioned costs.


                                            -7­
weaknesses within AKELA’s operations related to recording, authorization,
and custodial functions. These internal control deficiencies are discussed in
greater detail below and we believe that they warrant corrective action.

Financial Audit

      The OJP Financial Guide states that for-profit organizations are
required to have a financial and compliance audit conducted at least every
2 years. In addition, the award conditions for both the 2007 and 2009
awards required that a financial and compliance audit be submitted no later
than 9 months after the close of each fiscal year for the term of the award.
Such audits are required only when the annual federal award expenditures of
the organization exceed the threshold contained in OMB Circular A-133. 6
Based on expenditures reported by AKELA to the Defense Contract Audit
Agency (DCAA), AKELA was bound by these requirements as AKELA
expended federal funds in excess of the $500,000 threshold for fiscal years
(FY) 2007, 2008, and 2009.7 Lastly, the award document for the 2009
agreement required AKELA to submit to OJP a financial and compliance audit
report for FY 2007 before it obligated, expended, or drew down any funds
for the 2009 award.

      At the outset of the 2009 award AKELA requested that OJP accept an
audit performed by DCAA in lieu of a financial and compliance audit
performed by a public accountant. OJP determined that an audit from either
2007 or 2006 performed by DCAA could be accepted to satisfy the financial
and compliance audit requirement. However, AKELA did not submit to OJP
an audit performed by DCAA, but rather, it submitted a review of AKELA’s
2006 indirect cost rate performed by DCAA. OJP erroneously accepted the
documentation submitted by AKELA and thereby allowed AKELA to
drawdown and expend OJP funds.

      When we began our audit, we requested that AKELA provide us with
its most recent financial audit. AKELA was unable to provide a financial and
compliance audit performed between 2007 and 2010. We brought this issue
to OJP’s attention and OJP agreed with our finding. Given that AKELA did
not have an audit completed of its operations before we began our audit, we
assessed AKELA’s audit risk and increased the extent of our testing.

      6
          Federal award means federal financial assistance and federal cost-reimbursement
contracts that non-federal entities receive directly from federal awarding agencies or
indirectly from pass-through entities. It does not include procurement contracts or
contracts to operate federal government-owned contractor-operated facilities.
      7
          AKELA’s fiscal year is from January 1 through December 31.


                                           -8­
       After we began our audit, AKELA hired a firm to perform a financial
and compliance audit of its FY 2009 operations. The report issued in
February 2011 expressed an unqualified opinion, and identified two
significant deficiencies in internal controls. The deficiencies identified were a
lack of segregation of duties, and concerns regarding controls over monthly
billing of contract costs. Additionally, we compared the FY 2009 financial
statements we received from AKELA in July 2010 to those presented in the
FY 2009 fiscal and compliance audit. We noted significant changes to the
balance sheet and statement of operations. We requested details on the
adjustments made and found that a total of $900,630 in adjustments had
been made, some in order to conform with Generally Accepted Accounting
Principles. Significant adjustments included, but were not limited to, a
$418,617 adjustment to write-off previously capitalized costs for inventory
and fixed assets as funded research and development expense, $259,883 in
tax adjustments, $34,260 to reclassify revenue booked as expense, and
$80,703 to record the effects of 2008 journal entries. While the completed
FY 2009 audit satisfied a portion of the bi-annual audit requirement set forth
in the special conditions, it did not satisfy the specific requirement for the
completion of an FY 2007 audit. We recommend that OJP ensure that AKELA
complete its 2007 financial audit and all required bi-annual audits in
accordance with the special conditions of the 2007 and 2009 agreements.
Additionally, we recommend that OJP remedy $949,990 for the 2009
agreement and $956,995 for the 2007 agreement for a total of $1,906,985
in funds drawn without fulfillment of the awards bi-annual or 2007 audit
requirements.

Financial Management System

      The OJP Financial Guide requires that all fund recipients “establish and
maintain adequate accounting systems and financial records to accurately
account for funds awarded to them.” The guide additionally requires that
the accounting system provide adequate recording and reporting of financial
data to enable planning, control, and measurement. Furthermore, the guide
requires that award recipients separately account for each award and not
commingle funds with other grants, cooperative agreements, or programs.

       We found that AKELA utilized: (1) off-the-shelf accounting software
that AKELA considered its official accounting system, and (2) supplemental
spreadsheets that AKELA referred to as the “Billing Master”. We noted that
the spreadsheets were intended to serve as the underlying detailed support
for billing transactions recorded in the official accounting system.
Additionally, these spreadsheets were used to calculate drawdown amounts.
As discussed in the Expenditures section of this report, amounts that AKELA
charged to the agreements did not, in all cases, match the expenditures

                                      -9­
recorded in the accounting system. AKELA officials attempted to explain the
differences between the two systems. However, AKELA's explanations were
not sufficient to explain all discrepancies. As a result, these unexplained
differences presented difficulties in auditing AKELA’s administration of OJP’s
awards and its related transactions. Therefore, although AKELA’s official
accounting system identified expenditures related to the two NIJ cooperative
agreements, AKELA’s system did not accurately account for award-related
receipts and expenditures.

     We found the below accounting errors, which affected our audit
because these errors changed the population of award-related expenses,
accountable property, and indirect costs.

      •	 AKELA’s 2007, 2008, and 2009 Balance Sheets for agreement-
         related transactions did not balance. Specifically, the differences
         amounted to $98,878, $182,381, and $333,185, respectively.
         AKELA officials stated that its company-wide balance sheet does
         balance. However, as of our exit conference date with AKELA
         officials, we did not receive an explanation or evidence that
         reconciled the differences noted on AKELA’s agreement-related
         balance sheets.

      •	 AKELA’s 2007, 2008, and 2009 Income Statements for agreement-
         related transactions showed profits ranging from $103,028 to
         $245,076 annually, and the total amount of Sales as reported on
         the Income Statements did not match AKELA’s total invoices.
         AKELA’s President stated that AKELA did not charge profit to the
         agreement program. However, we found one item, a radar unit,
         charged to the agreements that contained a $1,147 markup or
         profit.

      •	 Invoice totals by line item created inside AKELA’s accounting
         system did not match the sum of totals charged to the agreements
         for each period. A list of these errors was provided to AKELA in
         order to obtain clarification. AKELA presented us with a response
         which explained adjustments made to 20 invoices created using
         their Billing Master spreadsheet. However, AKELA did not supply us
         with journal entries in order to tie the spreadsheet adjustments to
         the official accounting system. Also, 4 of the 20 explanations did
         not adequately explain the discrepancies. Therefore, we could not
         verify these explanations.




                                    - 10 ­
     As a result of these discrepancies, AKELA’s financial management
system did not accurately reflect the financial activity related to the NIJ
agreements. We recommend that OJP ensure that AKELA establishes
appropriate internal controls to include the design and implementation of
procedures to assure that the financial management system provides for
adequate recording and reporting of award-related activities.

Policies and Procedures

      Title 28 C.F.R 70, applicable through the special conditions of these
agreements, requires that the awardee’s financial management system
provide for effective control over, and accountability for all funds, property
and other assets. Our testing of accounting policies and procedures included
a review of revenue, disbursement, and payroll cycles. We also obtained a
copy of AKELA’s current policies and procedures, and observed procedures
related to these cycles. Specifically, we observed the accounting cycles for a
petty cash count and reconciliation, purchasing and procurement, billing,
and payroll.

      During our review, we noted that the policies and procedures in place
did not provide for adequate segregation of duties. Segregation of duties is
an important control within an organization as it provides checks and
balances that may prevent or detect both material errors and fraudulent
transactions. To provide effective segregation of duties, it is important for
an organization to ensure that authorization of transactions, recording of
transactions, and custody of assets are not controlled by the same employee
within a single functional area, such as payroll. In addition to inadequate
segregation of duties, we identified accounting and reporting inaccuracies,
missing transactions, and internal controls that did not function as designed.
Specifically, we found the following internal control deficiencies:

      •	 Payroll – AKELA’s payroll policy required employees to accurately
         record their time for each period on a semi-monthly timecard that
         was reviewed by their supervisor and authorized by the company’s
         President. We tested four non-consecutive pay periods involving 23
         timecards for 11 employees and found that 5 timecards for 2
         employees were not signed by the company’s President.
         Additionally, we found that the President’s timecard was not verified
         by anyone. NIJ performed a site visit in September 2011 and noted
         that AKELA implemented a new timekeeping system, which requires
         supervisory approval of all timecards and the establishment of an
         audit trail for all timecard approvals. AKELA officials stated that it
         installed a timekeeping system called Unanet in January 2011.
         We also noted that AKELA’s Office Manager recorded payroll

                                    - 11 ­
  expenditures in AKELA’s accounting system and generally disbursed
  payroll-related payments electronically. There was one employee
  that did not receive payroll payments via direct deposit. For that
  employee, AKELA’s Office Manager manually prepared payroll-
  related checks for that individual and AKELA’s President endorsed
  those checks. We discuss the controls over AKELA’s blank check
  stock below in our discussion on disbursements.

•	 Disbursements – We found that AKELA did not have a formal
   written policy for disbursements. AKELA’s practice regarding
   disbursements consists of its Office Manager preparing payments to
   all vendors and AKELA’s President approving those payments.

  The Office Manager not only recorded payments in the accounting
  system, but she was also the custodian of the company’s blank
  check stock and she reconciled the company’s bank statements.
  The blank check stock was stored in an unlocked desk drawer
  accessible to all employees.

  Further, AKELA’s President stated that for instances when he was
  going to be away from the office and there was a need to issue
  manually prepared checks, his practice was to sign blank checks in
  advance so that the Office Manager could use them for the one
  employee who still received a payroll check. Likewise, for instances
  when the Office Manager was going to be away from the office,
  AKELA’s President performed all accounting functions. We also
  found that the sequence of check numbers was not being verified
  and AKELA lacked written procedures for how voided checks should
  be handled.

  We believe that AKELA’s unsecured blank check stock, the use of
  pre-signed checks, the lack of adequate segregation of duties
  between AKELA’s President and Office Manager, and deficiencies in
  safeguarding checks and handling voided checks indicate internal
  control weaknesses. Employees responsible for recording payroll
  expenditures or reconciling bank statements should not also have
  custody of blank check stock and be able to prepare checks for
  issuance. Similarly, the use of pre-signed blank checks is an
  internal control weakness that fails to adequately safeguard
  AKELA’s cash assets.




                             - 12 ­
•	 Purchases and Receipt of Goods – AKELA lacked written
   procedures regarding procurement and the receipt of goods. We
   observed that employees were required to submit a purchase
   requisition to the President for authorization and sign incoming
   packing lists to verify receipt of goods. In testing transactions, we
   noted that this procedure was inconsistently applied because we
   found 67 percent of transactions that we tested were missing either
   the authorization signature or verification of receipt or both.

•	 Petty Cash – AKELA lacked written procedures regarding the
   approval and processing of petty cash transactions. We observed
   that an informal procedure existed which required employees to
   submit a request for petty cash. Employees were also required to
   submit a receipt for the authorized purchase and return any
   remaining funds to the Office Manager who recorded the transaction
   in the official accounting system. However, during our observations
   of petty cash reconciliation, we noted that the unwritten policy was
   inconsistently applied as multiple transactions lacked the required
   authorization slip.

   Additionally, we noted that the Office Manager maintained the petty
   cash and she performed the petty cash reconciliation. Specifically,
   the petty cash was stored in the Office Manager’s desk in a locked
   box, but the key for the box was stored in an unlocked drawer of
   the same desk. We also noted that AKELA’s employees have access
   to the petty cash fund when the Office Manager is unavailable.
   Finally, we found that AKELA did not perform surprise counts of its
   petty cash. These issues illustrate an overlap of the custodial and
   recording functions as well as weaknesses in safeguarding the petty
   cash.

•	 Missing Transactions – During our test of AKELA’s transactions,
   we noted 1,750 transactions missing from the general ledger that
   was provided to us. We asked AKELA officials why these
   transactions were missing. AKELA officials stated that they
   contacted the Quickbooks helpline for assistance in this matter. At
   the time we brought this to the attention of AKELA officials they had
   not ascertained the cause for the missing transactions.

•	 Billing – AKELA’s written procedure states that the Office Manager
   is required to bill contract customers on a monthly basis and record
   the receipt of remittances. It also states that financial transactions
   are reviewed monthly by a financial consultant. However, we found
   that AKELA does not consistently bill NIJ or review financial

                              - 13 ­
        transactions consistently, on a monthly basis. This reflects an
        inconsistent adherence to procedures.

        Additionally, we found that the Office Manager, who records the
        invoices, also has custody of remittances, records the remittances
        in the official accounting system, and reconciles the bank
        statement. All these functions incorporated into one position at
        AKELA constitute an overlap of the recording and custodial
        functions and therefore indicate inadequate segregation of duties.

      AKELA acknowledged that the above issues existed but expressed
concerns that efforts to strengthen its internal controls would create an
unreasonable burden on manpower, time, and funds. We acknowledge that
AKELA is a small company with fewer than 20 employees, which can make
adequate segregation of duties a challenging task. However, there are
simple inexpensive solutions which can be implemented to mitigate the risks
noted above. We recommend that OJP require AKELA to strengthen internal
controls, which include the design and implementation of procedures to
safeguard its blank check stock and petty cash as well as separate cash
handling duties from recording and reconciliation duties.

Drawdowns

      The OJP Financial Guide states that award recipients should request
funds based upon immediate disbursement or reimbursement needs. Award
recipients should time their drawdown requests to ensure that federal cash
on hand is the minimum needed for reimbursement or disbursements that
are to be made immediately or within 10 days.

      As of June 11, 2010, AKELA drew down a total of $956,995 under the
2007 agreement and $167,403 under the 2009 agreement. AKELA officials
stated that drawdowns were requested on a reimbursement basis. We
compared the drawdowns to AKELA’s accounting records and found that for
the 2007 agreement funds were drawn on a reimbursement basis. For the
2009 agreement, there were instances where AKELA drew down advances as
shown in Exhibit 2 below.




                                   - 14 ­
                                    EXHIBIT 2

                      COMPARISON OF AKELA’S

              DRAWDOWNS TO ACTUAL EXPENDITURES FOR

                    AGREEMENT 2009-SQ-B9-K113

                DRAWDOWN    ACTUAL               CUMULATIVE
         DATE    AMOUNT  EXPENDITURES DIFFERENCE DIFFERENCE
       01/20/10    $ 49,735          $ 49,735                 0             0
       02/16/10       10,392           10,392                 0             0
       03/01/10     100,000            16,253      $ 83,747       <$83,747>
       06/11/10        7,275           91,022    <$83,747>                  0
      Source: OIG Analysis of OJP drawdowns and AKELA’s financial records

       As shown in Exhibit 2, AKELA’s March 2010 drawdown resulted in an
advance of $83,747. AKELA expended $691 within 10 days of the receipt of
the drawdown, leaving $83,056 in advance funds. AKELA did not disburse
the remaining $83,056 on expenditures within 10 days of receipt as required
by the OJP Financial Guide. We asked AKELA’s President about the advance
and AKELA’s President admitted that the company was running out of cash
and therefore, he drew down $100,000 in March 2010 to remedy the critical
cash-flow situation. He stated that AKELA did not have enough cash to meet
its payroll and accounts payable obligations, so he drew down funds from
NIJ to maintain a positive cash balance in the corporation’s bank account.
By drawing a total of $83,056 more than 10 days in advance of expenditure
AKELA violated the OJP Financial Guide’s minimum cash on hand
requirement. Additionally, utilizing federal funds for non-agreement related
costs is not allowed. We recommend that OJP ensure that AKELA establishes
adequate internal controls that would only allow drawdowns as
reimbursements for expenditures that have been incurred and that are
directly related to an OJP agreement.

Agreement Expenditures

      According to AKELA’s records it had expended a total of $1,176,725 as
of June 30, 2010, on the two NIJ cooperative agreements that we audited.
These expenditures were comprised of both direct and indirect costs. Direct
costs included salaries, fringe benefits, travel, and other direct costs.
Indirect costs included overhead and general administrative costs allocated
based on direct labor. In our testing of salary and fringe benefits costs, we
selected a judgmental sample of two non-consecutive payroll periods for
each agreement to determine if payroll expenditures charged to the
agreements were accurate, adequately supported, and reasonable. In
addition to our test of payroll we judgmentally selected a total sample of
53 non-payroll transactions totaling $185,192 (16 percent) in order to

                                       - 15 ­
determine if costs charged to the agreements were allowable, properly
authorized, adequately supported, and in compliance with agreement terms
and conditions. Finally, we tested a judgmental sample to include 1 month
of indirect cost pool transactions for each agreement to determine whether
indirect costs charged to the agreements were allowable, properly
authorized, adequately supported, and in compliance with agreement terms
and conditions. When conducting our tests of expenditures, we reviewed
supporting documentation (payments, vouchers, invoices, and check copies)
for each transaction. The results of our tests of expenditures are described
below.

Personnel Expenditures

        According to AKELA’s agreement applications, AKELA planned to pay
an hourly rate and fringe benefits for a total of five positions under both
agreements. One program manager, three engineers, and a technician were
budgeted to contribute 12,437 hours to the completion of the two
agreements. We compared the positions that were charged to the
agreements with the positions that OJP approved and found that all positions
charged to the agreements were included in the OJP-approved budgets for
each agreement. Additionally, for both agreements, we reviewed the
names, positions, and pay rates for all employees paid with agreement funds
to determine if that information appears reasonable. We compared the pay
rates to industry rates for similar positions and found the hourly pay rates to
be reasonable. We also met with all employees whose salaries were paid
from the NIJ cooperative agreements and observed them working at AKELA’s
facility.

       We selected a judgmental sample of two non-consecutive payroll
periods for each agreement. As part of our test we attempted to determine
if payroll expenditures charged to the agreements were properly authorized
and supported. We also examined AKELA’s timekeeping policy and found
that it required that all employee timesheets be approved by a supervisor
and signed by the company’s President. We reviewed AKELA’s accounting
system payroll data including related timesheets and determined that five
timecards for two employees equaling $1,025 in personnel expenses (salary
and related fringe benefits) were not signed by AKELA’s President, and
therefore were not properly authorized. Therefore, we questioned $1,025 in
personnel expenses related to the unauthorized timecards. After we brought
this to the attention of AKELA’s President, AKELA hired a new manager
responsible for reviewing and approving employees’ timecards.




                                    - 16 ­
Fringe Benefits

       According to the OJP-approved budget, AKELA expected to charge
fringe benefits to the agreements as indirect cost based on direct labor
expenditures. The OJP Financial Guide states that indirect costs consist of
costs which are not readily assignable to the project but are necessary to the
operation of the organization and the performance of the project. AKELA
includes fringe benefit costs in its overhead and general administrative cost
pools as personnel resources are distributed across numerous projects and
its accounting system does not make specific assignment of these costs
practicable. Since all fringe benefits were handled in an indirect manner,
these costs were tested as part of our tests of indirect costs. Our testwork
and related findings are discussed in the Indirect Cost section of this report.

Other Direct Expenditures

      The standards for financial management systems outlined in
28 C.F.R. Part 70 require that recipients maintain financial records, including
cost accounting records that are supported by source documentation. 8
According to AKELA’s records, it had expended a total of $1,176,725 as of
June 30, 2010, on the two NIJ cooperative agreements that we audited. We
judgmentally selected a sample of 53 direct cost transactions totaling
$185,192 or 16 percent of total expenditures to determine if costs charged
to the agreements were allowable, properly authorized, adequately
supported, and in compliance with award terms and conditions. The
expenditures we selected included payments on contracts, equipment
purchases, and program services. Our selection was composed of the 13
highest dollar transactions for each agreement and the remaining
transactions were judgmentally selected. The following exhibit provides a
summary of our sample selection.




      8
          The 2007 and 2009 Agreements required that for the financial and procedural
administration of the awards, AKELA must comply with 28 C.F.R. Part 70 (formerly OMB
Circular A-110) Uniform Administrative Requirements for Grants and Cooperative
Agreements with Institutions of Higher Education, Hospitals, and other Non-Profit
Organizations excluding Sections 40-48.


                                         - 17 ­
                                    EXHIBIT 3

                       SUMMARY OF NON-PAYROLL

                    EXPENDITURE SAMPLE SELECTION

                                     AGREEMENT
              CATEGORY            2007      2009                         TOTALS
  Total Transactions                            377             39             416
  Transactions Tested                            26             27                53

  Percentage of Transactions Tested             6%           69%              13%

  Total Agreement Expenditures           $956,995       $219,730       $1,176,725
  Total Agreement Expenditures
                                         $118,762      $ 66,430      $   185,192
  Tested
  Percentage of Agreement
                                                12%          30%              16%
  Expenditures Tested
  Source: OIG analysis of AKELA’s agreement expenditures

      For the 2007 agreement, we selected a judgmental sample of 26 non-
payroll transactions totaling $118,762. For the 2009 agreement, we
selected a judgmental sample of 27 non-payroll transactions totaling
$66,430. Of the transactions we tested, 22 transactions totaling $19,970
from both agreements were found to contain one or more deficiencies. 9
Specifically, we found:

     •	 Nine transactions totaling $15,357 for the 2007 agreement and,
        three transactions totaling $392 for the 2009 agreement were not
        properly approved. AKELA’s unwritten policy requires that the
        company’s President sign a purchase authorization or contract. For
        example, the nine transactions questioned for the 2007 agreement
        included $10,625 in consulting fees for which no signed consulting
        contract was provided, and $4,732 in parts, equipment, outside
        services, and travel for which no signed purchase authorizations
        were provided.

     •	 Eleven transactions totaling $5,055 for the 2007 agreement and
        four transactions totaling $1,334 for the 2009 agreement were not
        vouched by AKELA officials as being received in accordance with its
        unwritten receiving policy as described for us. The vouching
        procedure, as described by AKELA officials, requires the receiving
        employee to sign the packing list that accompanies an order and

     9
        Some costs were questioned for more than one reason. The net total of $19,970
excludes the duplicate amount.


                                       - 18 ­
           make notations on the packing list if there are any discrepancies
           between the items listed on the purchase order and that which has
           been received. The 15 total transactions in question did not contain
           any signature confirming receipt of goods.

      •	 Four transactions totaling $11,331 for the 2007 agreement and two
         transactions totaling $1,975 for the 2009 agreement were lacking
         one or more supporting third party documents, such as an invoice
         or receipt.

      •	 One transaction totaling $621 was inaccurately recorded. AKELA
         posted the $621 contractor expense in an employee’s travel
         expense account.

      As a result, we questioned a total of $19,970 in expenditures for
lacking proper approval and adequate support.

Indirect Costs

      The OJP Financial Guide defines indirect costs as costs of an
organization that are not readily assignable to a particular project, but are
necessary to the operation of the organization and the performance of the
project. The cost of operating and maintaining facilities, depreciation, and
administrative salaries are examples of the types of costs that are usually
treated as indirect costs.

      Approved Indirect Cost Rate vs. Provisional Rate

      According to the OJP Financial Guide, the awarding agency may accept
indirect costs based on any current and approved indirect cost rate or
allocation plan previously approved for a recipient by any federal agency.
OJP’s Assistant Chief Financial Officer confirmed that AKELA must follow the
indirect cost rate as approved in the agreement budget until such time as
they receive OJP’s approval to change the rate, whether it is to an approved
provisional or final indirect cost rate. Furthermore, the 2008 OJP Financial
Guide and 28 C.F.R. 70 both require the recipient to obtain prior approval for
any transference of funds in or out of the indirect cost category in the
approved budget. 10


      10
          The special conditions of both the 2007 and 2009 awards require that AKELA
comply with 28 C.F.R 70 Uniform Administrative Requirements for Grants and Agreements
(Including Sub awards) with Institutions of Higher Education, Hospitals and Other Non–
Profit Organizations.


                                        - 19 ­
       We compared the agreement budgets to the DCAA indirect cost rate
plans and found that during the year the agreements were awarded the
rates in the OJP-approved budget agreed with the DCAA approved
provisional rates. Subsequent to award approval the DCAA approved
provisional rate increased while the OJP approved indirect rate did not
change. As a result, and as shown in Exhibit 4 below, AKELA charged
indirect costs at rates higher than the OJP-approved budgeted rate for all
years. We examined the award-related records related to AKELA’s request
to increase the approved rate. For the 2009 award, we found that AKELA
obtained approval from OJP in July 2012 for a rate increase subsequent to
our fieldwork. For the 2007 award, we did not find that AKELA received
approval or that it had requested approval to utilize an increased rate.
AKELA charged indirect costs totaling $558,854 to the 2007 award and
$29,741 to the 2009 award. Based on the OJP-approved budget, we
calculated that the total allowable indirect cost was $502,706 for the 2007
award and $29,701 for the 2009 award. We found that while the 2009
amount charged did not significantly differ from the allowable amount, the
increased rates charged to the 2007 award resulted in a $56,147 increase in
indirect costs. 11 We asked AKELA’s President about these unapproved
charges and he stated that AKELA’s practice is to utilize the DCAA
provisional rate when charging indirect costs to its programs. OJP requires
that only OJP-approved rates can be charged to its awards. Therefore, we
questioned $56,147 in indirect costs that exceeded OJP’s approved indirect
cost rate.




       11
         The total increase in indirect costs may be greater or less than the total $56,147
shown due to rounding.


                                           - 20 ­
                                         EXHIBIT 4

       PROVISIONAL, BUDGETED, AND CHARGED INDIRECT RATES FOR AKELA

   RATE TYPE        YEAR      DCAA         DCAA            OJP           OJP         AKELA
                            APPROVED      APPROVED      APPROVED       APPROVED       RATE
                           PROVISIONAL      FINAL     BUDGETED RATE    BUDGETED     CHARGED
                              RATE         RATE 12    2007-RG-CX­     RATE 2009­     (POST
                                                          K016          SQ-B9­     ADJUSTMENT)
                                                                        K113 13
OVERHEAD            2007     107.24%      172.63%       107.24%           -         172.63%

                    2008     107.24%      126.24%       107.24%           -         126.24%

                    2009     126.51%        NONE        107.24%       120.48%       128.27%

                    2010   NONE ISSUED      NONE            -         120.48%             N/A
GENERAL AND         2007      6.77%        10.45%          6.77%          -          10.45%
ADMINISTRATIVE
(G&A)               2008      6.77%         6.71%          6.77%          -           6.74%

                    2009     12.17%         NONE           6.77%       15.6%         11.38%

                    2010   NONE ISSUED      NONE            -          15.6%              N/A
Source: OIG Analysis of DCAA, OJP, AKELA indirect cost data

      Testing and Analysis of Indirect Costs

      Based on the following factors indicating an increased potential
inherent audit risk, we chose to increase both the substantive tests and
analytical procedures performed for indirect costs charged to the 2007 and
2009 agreements. The factors, discussed earlier in this report, which
contributed to our assessment of a higher audit risk for indirect costs
include: (1) the absence of audited financial statements, (2) the numerous
accounting discrepancies, (3) the lack of adequate internal controls, and
(4) the fact that for the 2007 award AKELA was charging indirect rates
substantially higher than the OJP approved indirect cost rates.

      Due to the above concerns and as of our entrance meeting in July
2010, we tested a judgmental sample of 1 month of indirect cost rate
transactions for each agreement out of the 26 months associated with the
2007 award and the 11 months having elapsed for the 2009 award. This
equated to 148 indirect cost transactions for the 2007 agreement and

      12
           DCAA approved the final indirect rates in March 2012.
      13
         The OJP-approved budgeted rate for the 2009 award consisted of revised rates
that AKELA submitted to OJP for approval in May 2012 and OJP approved the rates in July
2012.


                                           - 21 ­
160 indirect cost transactions for the 2009 agreement, totaling $13,236 for
both awards. Our testing was designed to determine whether the costs were
reasonable, allowable, allocable, and adequately supported. We also tested
these transactions to determine if they were applicable to the agreements.

       Based on our testing, we identified unallowable costs that were
included in AKELA’s indirect cost charges that related to lunches, proposals,
and officers’ bonuses. Specifically, these unallowable charges were allocated
to overhead. We found these costs to be either unallowable according to the
OJP Financial Guide or the charges lacked OJP’s prior approval. Upon
identifying these unallowable costs, we expanded our review to include all
similar charges for both agreements. According to AKELA’s general ledger,
there were 477 indirect cost transactions, totaling $306,185, charged to
both the 2007 and 2009 awards. Based on our testing of these charges, we
identified $72,982 in unallowable expenditures, as follows:

     •	 Our testing sample included $50 in unallowable expenditures for
        three lunches for AKELA’s President. A review of AKELA’s general
        ledger showed a total of 170 lunches of this type, which were billed
        to overhead during the 2007 and 2009 agreements, totaling
        $2,674. An AKELA employee stated that these lunches were for the
        President and his wife. However, the President stated these
        lunches were between him and fellow members of the business
        community with the purpose of sharing new business ideas. AKELA
        viewed these as legitimate business expenses that can be charged
        to the agreements. We disagree. The OJP Financial Guide requires
        that recipients of federal awards obtain OJP’s approval before
        obligating or expending federal award funds on expenditures
        related to preparing proposals for potential federal awards. As a
        result we are questioning OJP’s share, $678, for all lunch
        expenditures.

     •	 Our testing sample included $11,584 unallowable labor costs
        defined as “new business” and “proposals”. AKELA personnel
        confirmed that the primary purpose of labor allocated to this cost
        center was the creation of proposals for funding and research of
        new concepts which may lend themselves to future proposals for
        federal funding. The OJP Financial Guide requires that costs related
        to the preparation of proposals for potential future awards require
        approval prior to obligation or expenditure of funds. OJP did not
        approve the allocation of these costs to the agreements. A review
        of AKELA’s general ledger showed a total of 304 charges of this
        type were billed to overhead for both the 2007 and 2009
        agreements totaling $279,911. As a result we are questioning

                                   - 22 ­
        OJP’s share, $67,246, for all “new business” and proposal
        expenditures.

     •	 Our testing sample included $5,000 in bonus accruals. Although
        bonuses are provided for in AKELA’s employee agreements and are
        allowed under cost principals for Federal Acquisition Regulations,
        the OJP Financial Guide expressly states that bonuses paid to
        officers of for-profit organizations are “determined to be a profit or
        fee and are unallowable.” A review of AKELA’s general ledger
        showed a total of three bonuses dispersed to officers totaling
        $23,600 that were charged to overhead during the 2007 and 2009
        agreements. Therefore, we question OJP’s share, $5,058, for costs
        allocated to officers’ bonuses.

      In total, we question $72,982 in unallowable costs which represents
OJP’s share of the $306,185 in indirect expenditures detailed above.
Therefore, we recommend that OJP remedy $72,982 in unallowable or
indirect expenditures.

     Indirect Cost Rate Analysis

       The 2006 OJP Financial Guide stated that pre-agreement and proposal
costs require OJP’s prior approval before the costs could be charged to the
project. Pre-agreement costs are defined as those costs which are incurred
prior to the start date of the award. Proposal costs are defined as those
costs incurred with the purpose of preparing proposals for potential federal
awards. We analyzed patterns of indirect and direct cost allocation to
identify any abnormal fluctuations. Exhibit 5 is a chart of AKELA’s labor
allocation throughout FY 2007.




                                   - 23 ­
                                          EXHIBIT 5

                                  AKELA FY 2007

                     DIRECT AND INDIRECT LABOR PERCENTAGES

                      140%

                      120%

                      100%

                          80%

                          60%

                          40%

                          20%

                          0%
                                JAN   FEB MAR APR MAY JUN   JUL AUG SEP OCT NOV DEC
         NON-ADMIN INDIRECT % 90% 100% 89% 83% 71% 72% 95% 69% 26% 16% 21% -22%
         DIRECT LABOR %         10% 0% 11% 17% 29% 28% 5% 31% 74% 84% 79% 122%

     Source: AKELA

      We noted that the indirect rate charged for 2007 pertaining to both
Overhead and General and Administrative expenses was at least 50 percent
higher than the final rate proposed by AKELA in the preceding and following
years. AKELA’s President stated that the company had anticipated receiving
Phase 2 of an Army project in 2007, which they did not receive. Therefore,
during the first 3 quarters of 2007, the time for AKELA’s employees
previously slated to work on the Army-funded project was charged to
overhead. During the time they were billed to overhead, these employees
were tasked with exploring new business opportunities and creating bids and
proposals for new contracts. The employees’ salaries and fringe benefit
costs that were charged to overhead and that occurred prior to the 2007
award start date are considered pre-agreement costs for the 2007
agreement. These costs were allocated to customers on the basis of labor
expenditures at the end of the fiscal year. Without specific approval from
OJP, pre-agreement costs are not allowed according to the OJP Financial
Guide. AKELA did not obtain approval from OJP to apply these costs to the
NIJ agreement. NIJ’s share of these indirect prior period expenditures was
$67,787. Therefore, we question $67,787 in pre-agreement and proposal
costs allocated to the indirect cost pool and charged to the 2007 agreement.




                                             - 24 ­
Accountable Property

       According to the OJP Financial Guide, property acquired with federal
award funds should be used for the purposes stated in the award
application. Further, award recipients must maintain records on the source
of property items that were acquired using federal award funds. AKELA
officials stated that their capitalization threshold was $5,000. AKELA also
stated that the company had not purchased any accountable property with
OJP funds. However, during our tests of transactions we found at least one
piece of internally manufactured equipment, charged to the award, which
exceeded the capitalization threshold by $3,500. As a result, we again
requested that AKELA provide a list of accountable property. AKELA later
provided a new accountable property list, which contained the one item
charged to the award. AKELA advised the list also contained similar radar
equipment that was either owned by, rented, sold, or loaned to other
entities. It was unclear in AKELA’s records which items were partially or
totally funded by the NIJ agreements. Therefore we were unable to confirm
that NIJ funded materials were not being rented, sold, or loaned to other
entities. Besides, any of these actions with NIJ-funded materials may
generate program income.

      We selected the single accountable property item identified for testing,
determined that it was being utilized for award-related purposes, and
physically verified its existence. However, we found this list did not include
the cost, acquisition date, funding source, or ultimate disposition of the item.
We asked AKELA officials why a complete and verifiable record of
accountable property was not maintained. AKELA’s President stated that it
is AKELA’s policy to account for such property only at the end of the project
or when an item is incorporated into the final product. We reiterated to
AKELA the OJP Financial Guide requirement that award recipients maintain
accurate property records to include the identification number, description,
cost, acquisition date, location, percentage of federal participation in the
cost, and the ultimate disposition of property and equipment. The
accountable property list provided by AKELA lacked the necessary
information to be in compliance with the OJP Financial Guide and therefore,
we considered the documentation to be incomplete. We recommend that
OJP ensure that AKELA maintains a complete listing of accountable property
items in compliance with property management requirements.

Budget Management and Control

     The OJP Financial Guide states that movement of dollars between
approved budget categories is allowed up to 10 percent of the total budget
amount provided there is no change in project scope. When cumulative

                                     - 25 ­
changes exceed 10 percent of the total award amount or change the scope
of the project, prior approval is required of OJP.

      We discussed with AKELA officials their process and procedures for
budget creation and management and found that the budget is prepared
annually by AKELA’s President. AKELA’s President stated that the award-
related budget is developed using historical costs and future business
estimates as well as managerial judgments. He stated that throughout the
year he manages the budget by comparing the budget to actual
expenditures and adjusts business activity as necessary to operate within
budget constraints.

      We compared the total expenditures by budget category between
AKELA’s financial records and OJP’s approved budget for both the completed
2007 agreement and the 2009 agreement in progress. Our analysis did not
expose any shifts in direct expenditures greater than 10 percent of total
budgeted expenditures. In our comparison of budget to actual costs we did
note a significant difference in indirect expenditures for the 2007 agreement.
According to 28 C.F.R Part 70, which is applicable to both the 2007 and
2009 awards, AKELA was required to request in writing OJP’s approval
before it decided to substantially increase its budgeted indirect costs. We
found that AKELA increased its indirect expenditures by $82,476
cumulatively in the 2007 agreement without OJP’s prior approval.
Therefore, we question the $82,476 in unapproved budgetary transfers from
direct cost categories to the indirect cost category. 14

Reporting

      According to the OJP Financial Guide, award recipients are required to
submit both quarterly Federal Financial Reports (FFR) and semi-annual
Progress Reports. 15 In addition, since the 2009 agreement was funded by
the Recovery Act, AKELA was also required to submit quarterly Recovery Act
reports. These reports described the status of the funds, compared actual
accomplishments to the objectives of the agreements, and reported other
pertinent information. We reviewed the FFRs, Progress Reports, and

       14
           Unallowable indirect costs were consolidated as $82,476 to prevent duplication of
questioned costs among recommendations. Throughout the report each questioned indirect
cost will be discussed at its full amount with an adjustment to remove duplication in the
Schedule of Dollar Related Findings in Appendix II.
       15
         In October of 2009, the financial reporting requirement for grantees transitioned
from quarterly Financial Status Reports (FSRs) to quarterly Federal Financial Reports (FFRs).
Throughout the report, we refer to both report formats as FFRs.


                                           - 26 ­
Recovery Act reports submitted by AKELA to determine whether each report
was accurate and submitted in timely manner.

Federal Financial Reports

       According to the OJP Financial Guide, the quarterly FFRs are due no
later than 45 days after the end of the quarter, with the final FFR due within
90 days after the end date of the award. We reviewed the timeliness of the
FFRs submitted during the award period for each agreement. We found that
AKELA was late in submitting five FFRs for the 2007 agreement and one FFR
for the 2009 agreement. As shown in Exhibit 6, AKELA submitted the FFRs
between 1 and 3 days late. As a result we recommend OJP ensure that
AKELA submits its FFRs in a timely manner.

                                 EXHIBIT 6

               FEDERAL FINANCIAL REPORT HISTORY FOR

                      2007 AND 2009 AGREEMENTS

   REPORT                           REPORT      DATE                 DAYS
    NO .       REPORTING PERIOD    DUE DATE  SUBMITTED               LATE
                             2007-RG-CX-K016
      1        08/01/07 - 09/30/07      11/14/07      11/16/07         2
      2        10/01/07 - 12/31/07      02/14/08      02/14/08         0
      3        01/01/08 - 03/31/08      05/15/08      05/16/08         1
      4        04/01/08 - 06/30/08      08/14/08      08/14/08         0
      5        07/01/08 - 09/30/08      11/14/08      11/17/08         3
      6        10/01/08 - 12/31/08      02/14/09      02/13/09         0
      7        01/01/09 - 03/31/09      05/15/09      05/15/09         0
      8        04/01/09 - 06/30/09      08/14/09      08/17/09         3
      9        07/01/09 - 09/30/09      11/14/09      11/16/09         2
     10        10/01/09 - 12/31/09      01/30/10      01/29/10         0
     11        01/01/10 - 01/31/10      05/01/10      04/19/10         0
                             2009-SQ-B9-K113
      1        08/01/09 - 09/30/09      11/14/09      11/16/09         2
      2        10/01/09 - 12/31/09      01/30/10      01/27/09         0
      3        01/01/10 - 03/31/10      04/30/10      04/19/10         0
Source: AKELA and OJP




                                     - 27 ­
      We also reviewed each FFR to determine whether the report contained
accurate information related to actual direct expenditures, un-liquidated
obligations incurred during the reporting period, and program income for the
award. Our comparison of expenditures reported in the FFR’s to
expenditures recorded in the AKELA’s accounting system revealed a total of
8 out of 14 FFR’s did not accurately report expenditures. Specifically, as
shown in Exhibit 7, AKELA filed seven inaccurate FFRs for the 2007
agreement and one inaccurate FFR for the 2009 agreement.

                                  EXHIBIT 7

             ACCURACY OF FEDERAL FINANCIAL REPORTS FOR

                     2007 AND 2009 AGREEMENTS

                                         EXPENDITURES
                                                        IN
REPORT                           EXPENDITURE IN    AKELA’S
 NO .       REPORT PERIOD           THE FFR        RECORDS       DIFFERENCE
                                2007-RG-CX-K016
   1      08/01/07 - 09/30/07                 $0    $ 58,634     $   58,634
   2      10/01/07 - 12/31/07       $ 200,524        141,890     <58,634>
   3      01/01/08 - 03/31/08             62,642        62,645           3
   4      04/01/08 - 06/30/08            148,887     148,887             0
   5      07/01/08 - 09/30/08             79,356        79,603         247
   6      10/01/08 - 12/31/08            124,498     124,497           <1>
   7      01/01/09 - 03/31/09            174,945     174,945             0
   8      04/01/09 - 06/30/09             81,132        80,849       <283>
   9      07/01/09 - 09/30/09             65,011        65,011           0
  10      10/01/09 - 12/31/09             20,000        19,968        <32>
  11      01/01/10 - 01/31/10                  0             0           0
                                2009-SQ-B9-K113
   1      08/01/09 - 09/30/09        $     4,323    $    4,323           0
   2      10/01/09 - 12/31/09             45,412        45,412           0
   3      01/01/10 - 03/31/10            110,392        39,144   <$71,248>
Source: OJP and AKELA

     For the 2009 agreement, the expenditures on one FFR were overstated
by $71,248 when compared to AKELA’s accounting records. According to



                                     - 28 ­
AKELA personnel, the inaccuracy was caused by AKELA reporting in its FFR
amounts billed rather than expended.

      Based on our review, we concluded that AKELA submitted FFRs that
were inaccurate. We recommend that OJP ensure that AKELA submits
accurate FFRs.

Semiannual Progress Reports

       The OJP Financial Guide requires award recipients to submit Progress
Reports semiannually for discretionary awards and annually for block or
formula awards. For both awards, AKELA was required to submit its
Progress Reports semiannually. According to the OJP Financial Guide,
Progress Reports must be submitted within 30 days after the end of the
reporting periods of June 30 and December 31, for the life of the award.
AKELA was required to submit a total of 10 Progress Reports. For the 2007
agreement, we found that AKELA submitted three Progress Reports to OJP in
a timely manner and three that were 1, 5, and 90 days late. AKELA officials
explained that the report that was submitted 90 days late was submitted
late because of AKELA’s confusion as to where it was supposed to submit its
final technical report and its period ending December 31, 2009, Progress
Report. AKELA resolved this by submitting the reports to the proper
location, which were accepted by OJP. For the 2009 agreement, as shown in
Exhibit 8, AKELA submitted all Progress Reports on time.




                                  - 29 ­
                                     EXHIBIT 8

                        PROGRESS REPORT HISTORY

                        2007 AND 2009 AGREEMENTS

   REPORT                              REPORT     DATE                        DAYS
    NO .          REPORTING PERIOD    DUE DATE SUBMITTED                      LATE
                                 2007-RG-CX-K016
      1           08/01/07 - 12/31/07         01/30/08        01/29/08           0
      2           01/01/08 - 06/30/08         07/30/08        07/31/08           1
      3           07/01/08 - 12/31/08         01/30/09        01/30/09           0
      4           01/01/09 - 06/30/09         07/30/09        08/04/09           5
      5           07/01/09 - 12/31/09         01/30/10        04/30/10          90
      6           01/01/10 - 06/30/10         07/30/10        05/06/10           0
                                 2009-SQ-B9-K113 16
                          N/A
      1                                       10/19/09        10/09/09           0
                 SPECIAL REQUEST BY OJP
      1a          08/01/09 - 09/30/09         01/31/10        12/24/09           0
      2           10/01/09 - 12/31/09         01/31/10        01/28/10           0
      3           01/01/10 - 03/31/10         07/30/10        05/15/10           0
Source: OJP

The OJP Financial Guide states that:

              . . . the funding recipient agrees to collect data
              appropriate for facilitating reporting requirements
              established by Public Law 103-62 for the
              Government Performance and Results Act. The
              funding recipient will ensure that valid and auditable
              source documentation is available to support all data
              collected for each performance measure specified in
              the program solicitation.

      Due to the technical nature of the work performed by AKELA, we asked
the NIJ manager who was responsible for the two agreements to comment

      16
           For Exhibit 8 award 2009-SQ-B9-K113 only, the Report Due Date column reflects
the correct semi-annual report submission requirement while the Reporting Period column
reflects the period of performance covered by the report submitted. For the 2009
Agreement, AKELA submitted the first three reports on a quarterly reporting period basis
due to an error in OJP’s Grants Management System, which has since been corrected to
reflect the semi-annual reporting requirement.


                                         - 30 ­
on whether the Progress Reports that AKELA submitted to NIJ contained
sufficient information for NIJ to appropriately evaluate AKELA’s progress and
performance. The NIJ manager stated that the Progress Reports that AKELA
submitted contained sufficient information for evaluating AKELA’s progress.
In addition to reviewing the Progress Reports, the NIJ manager stated that
she held monthly update meetings with AKELA, and in her estimation
AKELA’s progress has been in line with other similar awardees within the
NIJ’s sensors and surveillance portfolio.

       Additionally, we observed a product demonstration, visually inspected
the radar units claimed to have been produced for testing, documented their
existence, and interviewed a law enforcement officer who had observed a
live demonstration of the product. The law enforcement officer stated he
saw the radar unit tested on two occasions; however he advised its user
interface was not yet optimal for law enforcement use. As a result, we were
able to corroborate the NIJ manager’s claim that AKELA is making progress
in achieving its agreement goals. We recommend that OJP ensure that
AKELA submits its Progress Reports in a timely manner.

Quarterly Recovery Act Reports

      Section 1512 of the Recovery Act requires recipients of Recovery Act
funds to submit quarterly reports. According to OMB guidance, Recovery Act
Reports are due 10 days after the close of each quarter. We reviewed the
Recovery Act Reports submitted for the last 4 quarterly reporting periods
ending September 2009, December 2009, March 2010, and June 2010 of the
2009 agreement period for timeliness. We found that AKELA submitted one
of the four reports 19 days late. AKELA officials stated that this late report
was the first Recovery Act Report their organization had submitted and the
delay was caused by its confusion as to where the report should be
submitted.

      We reviewed the four Recovery Act reports for accuracy. AKELA
reported it retained and created 1.5 Full Time Equivalents (FTE) in the first
quarter of 2010, and retained and created 1.87 FTEs in the second quarter
of 2010. To verify the total number of FTEs reported as retained and
created, we requested supporting documentation from AKELA. We used this
data to verify the number of FTEs AKELA retained and created.




                                    - 31 ­
                                   EXHIBIT 9

                        RECOVERY ACT REPORT HISTORY

                               2009 AGREEMENT

                                      NUMBER OF
                                        HOURS
                                     WORKED AND
    REPORT       REPORT PERIOD       FUNDED PER      FTE'S        FTE'S
    PERIOD       FROM - TO DATES       QUARTER   CALCULATED     REPORTED
                               2009-SQ-B9-K113
    2009 Q3    07/01/09 - 09/30/09            35.00   0.10        0.00
    2009 Q4    10/01/09 - 12/31/09          317.00    0.61        0.00
    2010 Q1    01/01/10 - 03/31/10          269.75    0.52        1.50
    2010 Q2    04/01/10 - 06/30/10          970.75    1.87        1.87
  Source: Federal Reporting.gov, AKELA

       As shown in Exhibit 9, the data provided by AKELA supported more
positions than reported for the 2 periods reported in 2009, and did not
support the positions reported as retained and created in the 1st quarter of
2010. Therefore, the Recovery Act reports covering the period of September
of 2009, through March of 2010, were inaccurate. AKELA officials advised
that they were unsure of the exact reason for the discrepancies; however,
they believed it to be due to incorrect calculations during the first three
reporting periods. We recommend that OJP ensure that AKELA submits
accurate data on its Quarterly Recovery Act reports.

Compliance with Additional Award Requirements

       We reviewed AKELA’s compliance with additional award requirements,
such as the agreements’ solicitation material and special conditions included
as part of the award documentation that have not been discussed earlier in
this report. We found that AKELA generally complied with the additional
award requirements we tested, with the exception of a requirement that
commercial organizations must agree not to make a profit as a result of an
award and not to charge a management fee for the performance of an
award. AKELA’s President stated that AKELA manufactured radar units
through internal development from which the units were “purchased” for NIJ
use. These internally developed units included markup, which AKELA passed
on to NIJ. Such profits are not only disallowed by the special conditions of
the agreements but are specifically disallowed by the OJP Financial Guide.
We recommend that OJP remedy the $1,147 in disallowed profits.




                                         - 32 ­
Program Performance and Accomplishments

       The 2007 and 2009 agreements were funded under two separate
solicitations with the shared objective of supporting research and
development of technology for use by law enforcement. The 2007
agreement was funded under NIJ’s Sensors and Surveillance Technologies
program and the 2009 agreement was funded under NIJ’s Recovery Act Law
Enforcement Technology Research and Development program. The primary
goal of both agreements was to research and develop through-the-wall
surveillance technology for the purpose of locating and tracking individuals
within buildings that could be used in hostage rescue and building search
and clearing operations. In addition, the 2009 agreement also supported
Recovery Act goals such as preserving and creating jobs, promoting
economic recovery, and helping to increase the economic efficiency and
effectiveness of law enforcement activities.

     Both the 2007 and 2009 solicitations identified the following three
main performance measures:

      (1)	   relevance to the needs of the field as measured by whether the
             awardee’s substantive scope did not deviate from the funded
             proposal or any subsequent agency modifications to the scope;

      (2)	   quality of the research as assessed by peer reviewers; and

      (3)	   quality of management as measured by whether significant
             interim project milestones were achieved, final deadlines were
             met, and costs remained within approved limits.

      The 2009 solicitation identified the same performance measures with
the following additions:

      (1)	   number of jobs retained (by type) due to Recovery Act funding,
             and

      (2)	   number of jobs created (by type) due to Recovery Act funding.

      Additionally the application for both agreements identified the
following key performance goals:

      •   system design modification for low cost manufacturing,

      •   development of a law enforcement friendly user interface,


                                    - 33 ­
      •	 receipt of FCC certification,

      •	 system weight of no more than 15 pounds,

      •	 refinement (based on user feedback) of the law enforcement
         friendly user interface, and

      •	 an all weather portable case.

      Based on our review of the Progress Reports that AKELA submitted to
OJP as well as discussions we had with AKELA personnel regarding program
performance, we found that AKELA had not deviated from the scope of the
agreements. We requested peer review documentation in order to verify the
quality of research performed by AKELA, but AKELA advised that no such
reviews of AKELA’s work had been performed. Additionally, we observed a
demonstration of a unit that AKELA stated met the weight, and all weather
portability requirements of the award. Unfortunately, the user interface
observed was not yet ready for testing by law enforcement, the cost
exceeded the goal of $5,000 stated in each application, and AKELA had not
yet obtained FCC approval for use of the device by law enforcement.

      While AKELA made significant progress during the course of the award,
it had not completed the two key requirements of FCC approval and law
enforcement evaluation. As of March 2011, AKELA had obtained Special
Temporary Authority (STA) for operational evaluation from the FCC, and has
requested a waiver for use by law enforcement. The STA from the FCC
allows AKELA to proceed with testing and obtaining feedback from law
enforcement personnel. The waiver, if granted, will allow use of the finished
device by law enforcement personnel. With completion of these two goals in
mind, NIJ awarded AKELA a 1-year, $150,000 award to continue this
project. 17 OJP should closely monitor AKELA’s progress under the new
award to ensure the remaining project goals are accomplished.

Monitoring of Sub-recipients and Contractors

      Based on our review of AKELA’s accounting records and discussions
with AKELA officials, we determined that AKELA had no sub-recipients.
However, AKELA entered into contractual agreements with two consultants,
which were funded by both the 2007 and 2009 agreements.



      17
          NIJ awarded AKELA Cooperative Agreement number 2011-IJ-CX-K005 that we did
not include as part of this audit.


                                       - 34 ­
        The OJP Financial Guide states that direct award recipients should
“. . . ensure that monitoring of organizations under contract to them is
performed in a manner that will ensure compliance with their overall
financial management requirements.” We reviewed AKELA’s policies and
procedures and noted that there were no policies or procedures for formal
monitoring of contractors which AKELA’s President confirmed. Therefore, we
interviewed employees to determine whether AKELA was adequately
monitoring its contractors and providing sufficient oversight. AKELA’s
President advised that he was involved in the work that was performed by
contractors and therefore, he was aware of whether the contractors were
achieving the goals set forth in the contracts. While this level of
involvement by management personnel provides oversight, it does not
provide assurance as to compliance with OJP financial management
requirements.

      We also reviewed the contract files and obtained copies of three
consulting contracts identified by AKELA as relating to the two contractors
who worked on the NIJ funded projects. We found that two contracts lacked
signatures by an authorizing official, one lacked the signature of the
contractor, and one did not cover the entire period for which the consultant
was engaged. We also requested documents supporting work performed by
the consultants and were provided with a consultant e-mail that stated the
number of hours worked. The e-mail did not describe or otherwise detail the
award-related activities that were performed. The e-mail also lacked
support, such as timesheets or a breakdown of hours worked by project,
that could have enabled AKELA to accurately distribute the contractor’s
charges to the appropriate customer.

      Based on our review of AKELA’s contract files, supporting
documentation, and discussions with AKELA officials, we determined that
AKELA lacked policies and procedures for adequately monitoring its
contractors. Therefore, we recommend that OJP ensure that AKELA
implement formal written policies and procedures requiring proper oversight
and monitoring of its contractors.

Post End Date Activity

       According to the OJP Financial Guide, award recipients are required to
submit the following reports at the end of the award period: (1) final FFR,
(2) final Progress Report, and (3) an invention report for inventions
conceived or sufficiently tested to demonstrate that it will work for its
intended purpose during the course of work under the award project. Also,
the recipient should request reimbursement to cover expenditures and
obligations (incurred prior to the award expiration date and liquidated no

                                    - 35 ­
more than 90 days after the award expiration date) as part of the award
closeout procedures. 18 The final drawdown request should be in conjunction
with the final FFR.

      The end dates for awards 2007-RG-CX-K016 and 2009-SQ-B9-K113
were January 31, 2010, and April 30, 2012, respectively. We found that for
the 2007 award, AKELA submitted its final FFRs, and final Progress Reports
by the closeout due date. An invention report was not required to be
submitted for this award. We found no exceptions with AKELA’s handling of
the 2007 award’s post end date activity. The 2009 award closeout was
found to be pending completion by July 29, 2012. The 2009 award did not
reach its closeout due date during our fieldwork. Therefore, as of the exit
conference in May 2012, we did not asses AKELA’s compliance with respect
to post end date activity related to the 2009 award.

Conclusion

       Based on our audit, we determined that AKELA’s financial management
system does not provide for adequate record keeping and reporting of
agreement-related activities. We found that eight FFRs were inaccurate.
Additionally, AKELA’s policies and procedures currently in place, specifically
related to AKELA’s management of the NIJ cooperative agreement funds, do
not provide sufficient internal control guidance, as we discovered significant
deficiencies in the areas of authorization, recording, and custody.

      In addition, we determined that AKELA’s expenditures were within the
approved budgeted constraints. However, we found $1,906,985 in
expenditures for both agreements to be either unallowable, or
unsupported. 19 These expenditures pertained to pre-agreement costs,
proposal costs, bonuses, profit, and costs for which AKELA could not provide
adequate support. We also found transactions which were not properly
authorized, one of which was also not accurately recorded. A detail listing of
these questioned costs can be found in the Schedule of Dollar Related
Findings in Appendix II of this report.




      18
          Effective August 2008 the requirement changed from 75 to 90 days in the 2008
OJP Financial Guide, applicable to the 2009-SQ-B9-K113 award.
      19
           Total of $1,906,985 represents net questioned cost as shown in Appendix II.


                                           - 36 ­
      We also assessed AKELA’s performance in meeting the cooperative
agreements’ objectives. During our review of the 2009 award, AKELA did
not achieve two key objectives: obtaining FCC certification and completion
of law enforcement testing. Lastly, we determined that AKELA had not
complied with requirements to complete a 2007 financial and compliance
audit. Based on all of the above findings, we questioned $1,906,985 and we
made 17 recommendations.

Recommendations

     We recommend that OJP:

     1.	 Ensure that the AKELA completes its 2007 financial audit and all
         required bi-annual audits in accordance with the special conditions
         of the 2007 and 2009 agreements.

     2.	 Remedy $1,906,985 in funds drawn without fulfillment of the
         awards bi-annual or 2007 audit requirements.

     3.	 Ensure that the AKELA establishes appropriate internal controls
         that include the design and implementation of procedures to
         assure that the financial management system provides for
         adequate recording and reporting of award related activities.

     4.	 Ensure that AKELA establishes appropriate internal controls which
         include the design and implementation of procedures to prevent
         overlaps in authorization, recording, and custodial duties.

     5.	 Ensure that AKELA establishes adequate internal controls that
         would only allow drawdowns as reimbursements for expenditures
         that have been incurred and that are directly related to an OJP
         agreement.

     6.	 Remedy $1,025 in salary and fringe benefits expenditures related
         to employee timecards which were not properly authorized.

     7.	 Remedy $19,970 in unapproved, or unsupported agreement-
         related expenditures.

     8.	 Remedy $56,147 of indirect expenses charged in excess of
         approved rates.

     9.	 Remedy $72,982 in indirect expenditures for disallowed new
         business, proposal, bonus, and lunch costs.

                                  - 37 ­
10. Remedy $67,787 in disallowed pre-agreement indirect
    expenditures charged to the 2007 agreement.

11. Ensure that AKELA maintains a complete listing of accountable
    property items in compliance with property management
    requirements.

12. Remedy $82,476 in budgeted direct cost transfers to the indirect
    budget category without OJP approval for the 2007 agreement.

13. Ensure that AKELA submits in a timely manner accurate FFRs.

14. Ensure that AKELA submits its progress reports in a timely
    manner.

15. Ensure that AKELA provides accurate data on its Quarterly
    Recovery Act reports.

16. Remedy $1,147 in disallowed profits.

17. Ensure that AKELA implements formal written policies and
    procedures requiring proper oversight and monitoring of its
    contractors.




                             - 38 ­
                                                              APPENDIX I

           OBJECTIVE, SCOPE, AND METHODOLOGY

      The purpose of our audit was to determine whether costs claimed
under cooperative agreements 2007-RG-CX-K016 and 2009-SQ-B9-K113
were allowable, reasonable, and in accordance with applicable laws,
regulations, guidelines, and terms and conditions of the cooperative
agreements. The objective of our audit was to review performance in the
following areas: (1) internal control environment; (2) drawdowns;
(3) program income; (4) expenditures including payroll, fringe benefits,
indirect costs, and accountable property; (5) matching; (6) budget
management; (7) monitoring of sub-recipients and contractors;
(8) reporting; (9) award requirements; (10) program performance and
accomplishments; and (11) post end date activity. We determined that
program income, matching, and monitoring of sub-recipients were not
applicable to the two cooperative agreements we audited.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. These standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      We audited $1,956,985 in funding awarded to AKELA under the Law
Enforcement Technology Research and Development and Sensors and
Surveillance Technologies Cooperative Agreements, numbered 2007-RG-CX­
K016 and 2009-SQ-B9-K113, respectively. Our audit covered, but was not
limited to, the entire award period and $956,995 in associated expenditures
for the 2007 agreement from its inception in September 2008 to its
administrative closeout in May 2010. For the 2009 agreement, our audit
covered, but was not limited to, the program period and associated
expenditures beginning in September 2009 through our entrance conference
on July 19, 2010.

       We tested compliance with what we consider to be the most important
conditions of the agreements. Unless otherwise stated in our report, the
criteria we audited against are contained in the OJP Financial Guide, award
documents, Code of Federal Regulations, Office of Management and Budget
(OMB) Circulars, the Recovery Act, and Federal Acquisition Regulation.



                                   - 39 ­
      Our testing was conducted by judgmentally selecting for analysis a
sample of payroll expenditures from the awards we audited. Judgmental
sampling design was applied to obtain broad exposure to numerous facets of
the reimbursements reviewed. This non-statistical sample design does not
allow projection of the test results to all payroll expenditures.

      In conducting our audit, we tested AKELA’s agreement activities in the
following areas: budget management and control, drawdowns, agreement
expenditures including payroll, fringe benefits, accountable property and
indirect costs, progress and financial reporting, compliance with award
special conditions, program performance and accomplishments, monitoring
contractors, and post award activity. In addition, we reviewed the internal
controls of the AKELA’s financial management system specific to the
management of DOJ agreement funds during the agreement period under
review. However, we did not test the reliability of the financial management
system as a whole. We also performed limited tests of source documents to
assess the accuracy and completeness of reimbursement requests and
federal financial reports. These tests were expanded when conditions
warranted.

       When we began our audit in July 2010, we found that AKELA had not
been audited according to the requirements of the NIJ’s cooperative
agreements. 20 In addition, we found significant deficiencies in AKELA’s
financial and accounting records. For example, AKELA’s agreement specific
balance sheet at the time we began our audit did not balance. Also, we
found that AKELA was maintaining two sets of accounting records, which
were loosely connected; one set was an off-the-shelf accounting program
and the other was a spreadsheet. Further, we requested but not provided
underlying support for AKELA’s transactions. Our review of AKELA's July 26,
2012, response determined that the additional information provided was not
sufficient to enable continuance of our audit as all the requested documents
were not provided. Therefore, on August 13, 2010, we suspended our
fieldwork and issued a letter to AKELA’s President, advising him to provide
us with financial and accounting records that we could audit. Several days
after we issued our letter to AKELA’s President, we received a response,
which included access to additional supporting documentation. AKELA’s
President also stated that an independent audit firm had been engaged to
perform the required financial audit of AKELA. As a result, we resumed our
fieldwork and our testing of transactions, the results of which are discussed
in the Findings and Recommendations section of the audit report.

      20
         According to the OJP Financial Guide, AKELA was required to have a financial and
compliance audit performed according to government auditing standards.


                                         - 40 ­
                                                                          APPENDIX II

                 SCHEDULE OF DOLLAR-RELATED FINDINGS

QUESTIONED COSTS:
                                                                         AMOUNT       PAGE
Unsupported Costs:

      Unsupported Payroll Expenditures                              $       1,025       16

      Unsupported Direct Expenditures                                $     19,970       19

Unallowable Costs:
     Funds drawn without fulfillment of audit
     requirements                                                    $ 1,906,985            9

      Expenditure in excess of indirect rate                         $     56,147       20

      Disallowed indirect costs                                      $     72,982       23

      Disallowed pre-agreement indirect costs                        $     67,787       24

      Disallowed indirect cost transfers                             $     82,476       26

      Disallowed profits                                            $       1,147       32

TOTAL QUESTIONED COSTS                                              $2,208,519

Less Duplicative Indirect Costs 21                                       <$196,916>

Less Question Amount in excess of drawdowns                              <$104,618>

TOTAL DOLLAR RELATED FINDINGS                                       $1,906,985

Questioned Costs are expenditures that allegedly violate legal, regulatory or contractual
requirements, or are not supported by adequate documentation at the time of the audit, or
are unnecessary or unreasonable.




      21
          Some costs were questioned for more than one reason. Net questioned costs
exclude the duplicate amount.


                                         - 41 ­
                                                                                                  APPENDIX III


                              GRANTEE RESPONSE



                                            AKBA
                      5551 Ekwill Street, Suite A Santa Barba ra, CA 93111-2355
                        805/683-6414, FAX 8051683-4076, www.akelainc.com


December 13,2012


Mr. David 1. Gaschke
Regional Audit Manager
San Francisco Regional Audit Office
1200 Bayhill Drive, Suite 201
San Bruno, CA 94066


Dear Mr. Gaschke,

When I established AKELA, Inc. in 1993 I did so with one underlying principle - to maintain the
highest level of integrity while providing the best quality products and services at the greatest
value possible. I am proud to say that I believe AKELA has done exactly that. The OlP
cooperative agreements that initiated this audit are an excellent example of our success at
achieving that principle. We are very proud of the product and value that we have been able to
deliver to the Justice Department.

So you can imagine my concern when I read that your office was recommending that 100% of
the cooperative agreement costs be questioned. I llllderstand where it might be the job of the
auditor to recommend the maximum disallowance, however, I don't believe the current
reconunendations are either in accordance with the relevant regulations, nor in the best interest
of OlP or AKELA. I would hope the conunon goal would be to determine what is fair and
equitable for both sides in accordance with the appropriate regulations and would ask that you
give careful consideration to our response reconunendations.

In reviewing your recommendations it would seem the majority of the recommended resolutions
fall into the following four categories:

           1.   Review and update internal controls and policies.
           2.   Complete an independent audit for FY07.
           3.   Obtain approval. from OJP for those costs that required a prior approval.
           4.   Disallow those costs that are specifically unallO\vable in accordance IN.i.th FAR principles
                and special conditions ofthe cooperative agreements.

Other than #2 above, you will see that we concur with your reconunendations. As stated in our
response, we have already made great strides in reviewing and updating our internal controls and
policies and will continue to do so. We welcome a follow-up audit to verify our success.

We do hope you will reconsider the need for an independent audit ofFY 2007. We believe the
audit performed by your office, the audits performed by the Defense Contract Audit Agency, and
the independent audit performed on our FY2009 Financials mitigates the need for the FY2007
audit. Since we are predominately a government contractor, the US Govermnent would




                                                  - 42 ­
ultimately pay for the cost of this audit through our indircct rate~ and we don't believc that
wo uld be a prudent use of those fund~ ba.~ed on the limited ri~k.

As indicated in our response, we have recently received approval from OlP for Cooperative
Agreement 2009-SQ-B9-K 113 which authorizes all costs incurred against that cooperative
agrcement and represents morc than half of thc qucstioned costs of this audit. We are also in thc
procc~s of rcque~ting and recciving approval from OlP for Cooperative Agreement 2007-RG­
CX-K01G. Once that is obtained, then all questioned C()!;t8 in this audit, with the exception of
those in point 4 above will be authorized and allowable.

We concur with your findings that those costs that are specifically unallowable, the portion of the
President's bonus charged to our indirect rates and OJP's portion of the questioned \tmches,
~hould be disallowed. 11 is important to point out that of all the costs questioned (and pos~ibly
the mark-up on the delivered product), these are the only ones Ihal are specificall y unallowable
C08ts. Alilhe other questioned costs are costs that are defined as allowable in accordance wi th
FAR but are questioned because of lack of perceived and actual prior approval.

As a small business, we are constantly balancing the need for additional controls to ensure we
meet the required regulations against the cost required to implement those controls. However,
duc in part to thc results of this audit, along with a number of ~ i gnifi cant changes to our current
bm;ine~ s, I have hired an experienced Chief Financial Officer, with an expected start date of
January 20 13, to emphasize the seriousness with which AKELA takes these recommendations.
AKELA 's goal has always been, and will always be, to ensure we are in compliance with all
state and federal government regu lations.

Please do not hesitate to call if I can be of further assistance or you wish to discuss our
recommendations in grealer detail.


Best Regards,


I
 ~ ~1L<t-
Allan HlUIt
President, AKELA, Inc.




                                               - 43 ­
                                 AKELA, Inc.
                Response to U.S. Department of Justice (DOl)
                 Draft Audit Report dated Novembe ... 15, 2012
 Coope...ative Ag ...eements Number-s: 2001-RG-CX-K016, 2009-SQ-B9-K113

Recommendation 1: Ensure that AKELA completes its 2007 financial audit and all required
bi-annual audits in accordance with the special conditions of the 2007 and 2009 agreements.

Respon se: Non-concurrence .

   a. AKELA is not required to complete a 2007 financial audit in accordance with the 2008
      Office of Justice Programs (OJP) Financial Guide . The audit requirements from Part III
      Chapter 19, page 140 for Commercial (For-Profit) Organizations, such as AKELA , Inc.
      are as follows:

       COMMERCIAL (FOR-PROFIT) ORGANIZA TIONS
       These organizations shall have financial and compliance audits conducted by qualified
       individuals who are organizationally, personally, and externally independent from those
       who authorize the expenditure of Federal funds. This audit must be perfOrmed in
       accordance with Government Auditing Standards, 2003 Revision The purpo.se of this
       audit is to ascertain the effectiveness of the financial management systems and internal
       procedures that have been established to meet the terms and conditions of the award.
       Usually, these audits shall be conducted annually, but not less frequently than every 2
       years. The dollar threshold for audit reports established in OMS Circular A-133, as
       amended, applies.

       Section 28 of the Special Conditions of Cooperative Agreement 2007-RG-CX-KOI 6, and
       Section 48 of the Special Conditions of Cooperative Agreement 2009-SQ-B9-K1 13 state
       that ~The distribution of audit reports shall be based on requirements in the current
       edition of the OJP Financial Guide" In addition, Section 1 of the Special Conditions of
       both Cooperative Agreements slate "The recipient agrees to comply with the financial
       and administrative requirements set forth in the current edition of the Office of Justice
       Programs (OJP) Financial Guide. "

       Based on the above referenced regulations, we believe the OJP Financial Guide
       supersedes the Special Conditions of the contract as it relates to the audit requirements.
       Consequently, in accordance with the 2008 OJP Financial Guide AKELA, Inc. is not
       required to perform a 2007 audit In addition, as reference on page 9 of the draft audit
       report, the financial and compliance audit of AKELA, Inc.'s FY 2009 financial statements,
       performed by qualified individuals w ho meet the independent auditor requirements ,
       satisfied a portion of the bi-annual audit requirement set forth in the special conditions.
       We believe the audit of AKELA 's 2009 financial statements satisfies all the requirements
       of section 28 and 48 respectively of the rele vant cooperative agreements.

   b_ AKELA, Inc. has been involved in government contracts since its inception in 1993 and
       has been      audited by the Defense Contract Audit Agency (DCAA) , an agency which
       meets the     audit requ irements of the Cooperative agreements as previously stated , since
       that time .   DCAA has performed audits and adequacy evaluations through 2010 and has
       issued no     significant find ings. DCAA has also performed an accounting systems audit


                                                 · 1·
AKELA, INC.                                                      Decem ber 13, 2012 • Audit Re sponse




                                              - 44 ­
        and evaluation and has determined that AKELA's accounting system meets the
        requirements in accordance with the Federal Acquisition Regulations (FAR).

   c.   Recommendation 1 makes the assumption that FY07 is the first fiscal yea r of the
        cooperative agreement and therefore is the first year an audit is required. However,
        Table 1 shows that the first yea r of Cooperative Agreement 2007-RG-CX-K016
        encompasses portions of FY07 and FY08 with the majority of the first year coming in
        FY08. Therefore we would contend that if an audit is required for the first ye ar, it should
        be in FY08 not FY07. It is also important to point out that FY09, the yea r in which
        AKELA had an independent audit performed, covered more months from both
        cooperative agreements than any other year.




                                                                       M onths per Fiscal Year
     Cooperadve                 Period of            ••f
     Agreement                Performance           Months      FY 07    FY08   FY09   FY10      FYll
  2:007-RG-CX-KOI 6       8/1/2:007 - 9/30/2:009        26         5       12     9
  2009-SQ-B9-K113         8/1/2009 - 7/31/2011          24                        5      12       7
         Total                                          50         5       12     14     12       7

Based on the responses above we do not believe a 2007 audit is required and wo uld ask that
you re move recommendation 1 from the audit report since it does not apply.


              'f''''';~ Remedy $1,906,985 in funds drawn without fulfillment of the awards bi­
                    i requirements.

Response: Non-concurrence.

   a . See response to Recommendation 1 above . Since we believe the 2007 audit is not
       required , we don't belie ve the $1 ,906,985 funds should be questioned or disallowed .

   b . If it should be decided that the 2007 audit is required , we still believe this
       recommendation is not in accordance with the 2008 OJP Financial Guide . In the audit
       requirements of the 2008 OJP Financial Guide, Part II I, Chapter 19, Page 137 the
       recommended remed y is as follows :

        FAILURE TO COMPLY
        Failure to have audit~ performed a~ required will re~ult in the withholding of new
        di~cretionary awards and/or withholding of funds or change in the method of payment on
        active awards.

        Based on our responses, we do not believe this remedy is justifiable. However, this
        remedy does make void the recommended remedy to disallow cost if it is determine that
        an audit should be completed.

   c.   Section 25 of the Special Conditions of Cooperative Agreement 2007-RG-CX-K016, and
        Section 45 of the Special Conditions of Cooperative Agreement 2009-SQ-B9-K113 state



AKELA, INC                                                      December 13, 2012 - Audit Response




                                             - 45 ­
        that "Recipient agrees to comply with the contract cost principles of subpart 31.2 of the
        Federal Acquisition Regulations (F.A.R.). "     Other than the costs questioned in
        recommendations 6,7,8, 9,10, 12 & 13, (which will be addressed in further responses),
        there is no evidence that the remaining portion of the $1,906,988 being questioned is
        unallowable in accordance w ith FAR subpa rt 31 .201-2. In fact AKELA's position is that
        the above recommendations actually supports the allowability of the rema ining portion of
        the $1 ,906,988 costs since none of these costs we re identified in any of the
        recommendations as being unallowable. Consequently, allowability of these costs is in
        accordance with FAR 31.2.

   d . Recommendation 2 summarizes the two cooperative agreements in determining
       questioned costs when, contractually, they should be treated as separate cooperative
       agreements. Consequently, year 1 is not the same for both cooperative agreements as
       shown in Table 1 above and clearly an audit required in FY2007 does not apply to a
       cooperative agreement that had not yet been awarded. As a result, Cooperative
       Agreement 2oo7-RG-CX-KOI6 is the only one that should be questioned.

   e. We believe the OJP has already received the benefit of the $1 ,906,985 as indicated on
      page 34 of the draft audit report where it slates; While AKELA made significant
      progress during the course of the award, it had not completed the two key requirements
      of FCC approval and law enforr:ement evaluation. · We would contend that these
      requirements w ere not a guaranteed deliverable of the cooperative agreement since a
      cooperati ve agreement is not a Fixed Price Contract, but were proposed goals of the
      agreement. This was further supported by an additional1-year award of $150,000 to
      continue this project and complete these goals.

        As a re sult, we believ e Ihe OJP received exactly what was agreed in the referenced
        cooperati ve agreements and believe that disallowance of 100% of the award is nol in
        accordance with the OJP Cooperative Agreement regulations stated in Code of Federal
        Regulations, Title 28 -Judicial Administration, Chapter 1, Part 66 Uniform Administrative
        Requirements for Grants and Cooperative Agreements to Slate and Local Governments,
        or the Recovery Act of 2009, section 66.3 Definitions - Grants and section 66.22 -
        Allowable Costs, nor is it in accordance with the Recovery Act of 2009 designed to
        create new jobs and save existing ones.

   f.   We believe this recommendation violates the Grant Adjustment Notice from the US
        Department of Justice; OffICe of Justice Programs dated July 23,2012. The referenced
        Grant Adjustment Notice issued a final approval given by OCFMD - Financial Analyst
        approving the entire amount of $999,990 for Cooperative Agreement 2oo9-SQ-B9-KI13.
        See attachment A .        We believe this Grant Adjustment Notice makes this
        recommendation invalid.

Based on the responses above we would ask that you eliminate recommendation 2 from the
audit report.


Recommendati on 3; Ensure that AKELA establishes appropriate internal controls that include
the design and implementation of procedures to assure that the financial management system
provides for adequate recording and reporting of award related activ ities.

Response: Concurrence.

                                               · 3·
AKELA, INC                                                     Decembe r 13,2012 - Audit Response




                                            - 46 ­
   3.    AKELA agrees that internal controls can always be improved upon. As a result of both
        the DOJ audit and its own independent audit, AKELA has already implemented a
        significant number of additional internal controls to address the issues raised by the DOJ
        audit. This includes the installation of an electronic timekeeping system called Unanet in
        January 2011 , as referenced on page 11 of the audit report. In addition, in line with its
        re cent growth, AKELA is in the process of hiring an experienced Chie f Fina ncial Officer
        with over 25 years of government contracting experience to help address I hese issues.
        The CFO's expected start date is January 16, 2013. His first order of business will be to
        re view all policies and internal controls to ensure they are in accordance with FAR II is
        important to point out that during t he completion of the cooperative agreements there
        were fewer than 10 employees at AKELA with only 1 administrative employee. As a
        result of so few employees, it was very difficult to implement internal controls that
        addressed the separation of duties. OCAA recognizes the size of a Company as a
        significant factor in determining proper internal controls as referenced in its audit manual
        in chapter 5, section 1 - Obtaining an Understanding of a Contraclor's Internal Controls
        and Assessing Control Risk. Throughout its multiple audits of AKELA performed over 20
        years, OCAA has continually assessed AKELA's risk as minimal and determined that its
        internal controls are adequate given its size.


Recommendation 4: Ensure that AKELA establishes appropriate internal controls which
include the design and implementation of procedures to prevent overlaps in authorization,
recordin g , and custodial duties.

Response: Concurrence.

   a.   See response to Recommendation 3 above.


Recommendati o n 5: Ensure that AKELA establishes adequate internal controls that would
only allow drawdowns as reimbursements for expenditures tha i ha ve been incurred and Ihal are
directly related to an OJP agreement.

Response: Concurrence .

   b.   See response to Recommendation 3 above.


Recommendation 6: Remedy $1,025 in salary a nd fringe benefits expenditures related to
employee timecards which were not properly authorized.

Response: Non-concurrence.

   a. The President has subsequently reviewed all timesheets during the audit period and has
      approved all timesheets that were not previously approved _ We welcome a follow-up
      audit to verify these timesheels have been approved.

   b . There is no evidence that these costs are unallowable in accordance with FAR 31.2 as
       referenced in the Special Conditions of the refe renced Cooperative Agreements. Lack
       of approval on the timesheet does not make the cost unallowable . The fact that an


AKELA, INC                                                      Decembe r 13,2012 - Audit Response




                                             - 47 ­
       employee completed and approved their timesheet validates that Itle labor costs are
       allowable as charged. In addition, even though the President did not approve the
       timesheet, he ultimately approved the time by approving and signing all payroll checks.
       The fact that these employees were paid for these hours constitutes approval by the
       President.

Since the President has approved all questioned timesheets pursuant to the audit, and since he
approved and signed all payroll checks for the questioned hours, we believe these costs are
allowable. However, AKELA would concur with the following recommendation: Ensure AKELA
follows its policies to properly authorize all time cards in a timely manner.

Recommendation 7:       Remedy $19,970 in unapproved or unsupported agreement-related
expenditures.

Response: Non-concurrence.

   a. There is no evidence that any of these costs are unallowable in accordance with FAR
      31.2 as referenced in Itle Special Conditions of the referenced Cooperative Agreements.
      Lack of approval does not make the cost unallowable . There is no evidence that any of
      these costs or services were not performed as stated. The fact that AKELA has met the
      contractual requirements as previously stated would suggest that these costs have been
      incurred as stated.

   b. The President is in the process of reviewing all questioned costs and approving as
      required in order to meet the requirement as stated in the recommendation. We
      welcome a follow-up audit to verify approvals. In addition, the President constituted
      approval by being the only person authorized and eligible to sign checks for the
      company. Due to the limited number of transactions as a result of the small size of the
      Company, the President is intimately familiar with all expenses and constitutes his
      approval by the signing of checks in payment of the expenses in question.

As a result of no ev idence indicating Itlese costs are unallowable in accordance with FAR 31.2,
and that all questioned costs are in the process of being approved along with the fact that the
signing of checks in payment of all questioned expenses prior to the audit constitutes approval,
we believe these cost are allowable . AKELA would concur with the following recommendation:
Ensure AKELA follows its purchasing policies and properly authorize all expenditures in a timely
manner.


Recommendation 8:      Remedy $56,147 of indirect expenses charged in excess of approved
rates .

Response: Concurrence with fact that AKELA did not receive rate approval from OJP for its
2007 actual indirect rates but non-concurrence with the recommendation to disallow the costs.

   a . The lack of approval does not constitute an unallowable cosl. There is no evidence that
       any of these costs are unallowable in accordance with FAR 31 .2 as referenced in the
       Special Conditions of the Cooperative Agreements. In fact FAR 31 .2 specifically states
       that these costs are allowable as referenced by the definition of each individual cost
       listed in FAR 31.2. In addition, FAR 31.201-4 Determining allocability, requires that all
       costs be allocated in the same manner to all contracts. Consequenlly, we are required

                                              .,.
AKELA, INC                                                    Decembe r 13,2012· Audit Response




                                           - 48 ­
       to charge each cooperative agreement with its related portion of indirect costs based on
       its direct cost ratio to all other contracts.

   b . The OOJ has received the benefit of these costs as referenced by the deliverables to
       date, and as stated in recommendation 2, section (e.)

   c. These costs are within the original agreed upon value of the cooperative agreement.

   d. We believe the costs related to the 2009 cooperative agreement from this
      re commendation violates the Grant Adjustment Notice from the US Department of
      Justice; Office of Justice Programs dated July 23, 2012 . The referenced Grant
      Adjustment Notice issued a final appro val given by OCFMD - Financial Analyst
      approving the entire amount of $999,990 for Cooperative Agreement 2009-Sa-B9-K113.
      This includes all indirect costs. See attachment A.

We concur that AKELA did not obtain approval for its 2007 indirect rates. However, for the
reasons stated above, we believe the proper treatment would be to recommend that AKELA
obtain approval from OJP for the 2007 indirect costs similar to the approval they have recently
received for their 2009 indirect costs.


Recommendati o n 9: Remedy $72,982 in indirect expenditures for disallowed new business,
proposal, bonus, and lunch costs.

Response: We are in concurrence with disallowance of the portion of the President's bonus
charged through the indirect rates and with OJP's share of all lunch expenditures but are in non­
concurrence for the remainder of the $72,982 related to new business and proposal costs.

   a. We concur that the portion of the President's bonus being charged through the indirect
      rates should be disallowed. However, AKELA is a California Corporation w ith only one
      officer that officially works at AKELA, and that is the President. None of the other named
      officers being paid bonuses meet the officer definition as defined by the by-laws of the
      AKELA Corporation and therefore their bonuses are allowable in accordance with FAR
      31 .2.

   b. Though AKELA believes the majority of the questioned lunches are allowable in
      accordance with FAR 31 .2, AKELA concurs with the recommendation to disallow OJP's
      share of $668. As stated in recommendation 3 (a .) , AKELA is in the process of updating
      its internal controls to ensure all trav el cost and business expenses adhere to both the
      IRS travel guidelines and FAR 31.205-46 Travel Costs.

   c. Recommendation 9 does not recognize the difference between "new business" and "bid
      and proposal" costs as defined in FAR 31.2. Though new business is not specifically
      defined in FAR 31 .2, we believ e it falls under a number of FAR sections but
      predominately sections FAR 31.205-2 5 -- Manufacturing and Production Engineering
      Costs and section 31 .205-38 selling costs, both of w hich are allowable . In all instances
      new business costs are allowable and do not require prior approval in accordance with
      the cooperative agreements' special conditions.

       These sections include not only the cost of meeting w ith customers but also the time
       spent on improving AKELA's current products and services to better identify the broad

                                              · 6·
AKELA, INC                                                    December 13, 2012 - Audit Re sponse




                                           - 49 ­
       requirements of our potential customer's needs and match them against the capability of
       AKELA's products and services. Much of the time is spent in review prior to actually
       talking with a potential customer. There are separate account numbers set up for these
       costs and they are predominately charged to overhead.

       Bid and proposal costs are very specific and are defined in FAR section 31.205-18
       Independent research and development and bid and proposal costs, and are also
       allowable. Bid and proposal costs are defined as costs incurred in preparing, submitting,
       and supporting bids and proposals on potential Government or non-Government
       contracts. These costs are not the same as new business which is why a separate
       account is set up to track bid and proposal costs. Bid and proposal costs are charged to
       the G&A indirect cost pool and allocated to all contracts.

       There is no evidence provided that new business costs were charged as proposal costs.
       In fact, AKELA's labor policies prevent that from happening by requiring timesheets to be
       signed by boltl the employee and the President to ensure that the correct account is
       charged. The fact is that many new business costs never result in a proposal being
       submitted, so to suggest that all new business costs are proposal costs is inappropriate
       and ignores FAR 31 .2. We believe all new business costs are allowable in accordance
       with FAR 31 .2 and believe they should be remo ved from this recommendation.

   d. We don't believe this recommendation totally complies with the 2008 OJP Financial
      Guide, Part III, Chapter 15 Costs Requiring Prior Approva l, number 5. Proposal Costs
      which states:

       Costs to protects for preparing proposals for potential Federal awards require PRIOR
       APPROVAL for:
       a. The obligation or expe nditure of funds or
       b. The performance or modification of an activity under an award/sub award project,
       where such approval is required.

       Based on this clause, proposal costs for non-federal awards do not require prior
       approval. As a result the proposal costs for non-federal awards need to be identified
       and removed from this recommendation . That step has not taken place.

   e. We believe the majority of the proposal costs have been approved by OJP as a result of
      OJP appro ving the provisional rates for Itle cooperative agreements. As shown in
      attachments Band C, provisional rates for 2007 and 2009 include estimated proposal
      costs. By approving Itle provisional rates as stated in Exhibit 4 of the audit report , all
      costs that make up the provisional rates as provided by the provisional rate detail were
      approved as well. Consequently all proposal costs included in the provisional rates have
      been approved .

As shown above, we believe this recommendation viol ates FAR 31.2 which designates new
business/selling and proposal costs as unique and allowable. In addition , we belie ve OJP had
already provided approval for the referenced proposal costs by approving AKELA's provisional
rates. Consequently, we would request that this recommendation be modified to only d isallow
the portion of the President's bonus that was inadvertently charged to the cooperative
agreements through AKELA's indirect rates and OJP's portion of the questioned lunches.




                                              ·7·
AKELA, INC                                                    Decembe r 13,2012· Audit Response




                                           - 50 ­
Recommendation 10: Remedy $67,787 in disallowed pre-agreement indirect expenditures
charged to the 2007 agreement.

Response: Non-concurrence.

   a. See response (c.) in recommendation 9 above. New business costs are indirect costs
      and are not directly related to anyone contract or cost objective.

   b . There is no evidence that any of these costs charged to indirect cost categories were
       directly related to any contract including the cooperative agreements in question.
       AKELA's timesheet policies require that alltimesheets be signed by the employee and
       approved by the President to ensure all costs are charged to the proper cost objective.

   c. There is a contradiction between recommendation 9 and 10 as it relates to new business
      costs. In recommendation 9, new business costs were interpreted to be proposal costs
      and in recommendation 10, new business costs were interpreted to be pre-agreement
      costs. We believe new business costs are neither, and are specifically identifiable as
      referenced in response (c.) in recommendation 9 above.

   d. AKELA believes this recommendation contradicts the 2008 Office of Justice Programs
      (OJP) Financial Guide, Part III, Chapter 12: Costs Requiring Prior Approval, Section 4:
      Pre-agreement Costs, and FA R 31 .205-30 Pre -contract costs. Both references refer to
      direct costs specifically charged for the benefit of one cost objective or contract, or as
      stated in this audit, specifically for the benef!l: of the referenced cooperative agreements.
      The costs identified in recommendation 10 are clearly indirect costs and do not meet the
      definition of these two references and, therefore, do not require an approval.

As stated above, the referenced costs identified in re commendation 10 are specifically indirect
costs as identified in FAR 31.2 and do not meet the definition of pre-agreement or pre-contract
costs and do not require prior approval and we request this recommendation be removed from
the audit report since it does not apply


Recommendation 11 : Ensure that AKELA maintains a complete listing of accountable
property items in compliance with property management requirements.

Response: Concurrence.

   a.    AKELA is in the process of rewriting its government property policies to ensure that they
        are in compliance w ith all FAR regulations with regard to government property
        management requirements.


Recommendation 12: Remedy $82,476 in budgeted direct cost transfers to the indirect budget
category without OJP approval for the 2007 agreement.

Response: Non-concurrence.

   a. This is a duplication of already previously discussed issues as identified in note 14 on
      page 26 of the audit report and should not be included again .


                                               . ,.
AKELA, INC                                                     Decembe r 13,2012 - Audit Response




                                            - 51 ­
   b. See response to recommendation 8 and incorporate complete answer.

Due to this recommendation being a duplicate of previously questioned and discussed costs we
would ask that this recommendation be removed from the audit re port.


Recommendation 13: Ensure that AKELA submits in a timely manner accurate FFRs.

Response: Concurrence .

   a. AKELA agrees to put in place procedures to ensure all future FFR's are submitted in a
      timely manner or request approval prior to delay.


Recommendation 14: Ensure that AKELA submits its progress reports in a timely manner.

Response: Concurrence.

   a. AKELA agrees to put in place procedures to ensure progress reports are submitted in a
      timely manner or request approval prior to delay.


Recommendation 15: Ensure that AKELA pro vides accurate data on its Quarterly Recovery
Act re ports.

Response: Concurrence.

   a. AKELA agrees to put in place procedures to ensure accurate data is provided on its
      Quarterly Recovery Act reports.


Recommendation 16:       Remedy $ 1,147 in disallowed profits .

Response: Non-concurrence.

   a. The price charged the OJP for the referenced manufactured radar unit in
      recommendation 16 was the established catalog price in accordance with FAR. It was
      determined that the total cost to the contract would be less to OJP by charging the
      catalog price instead of building a separate unit for this contract and charging the actual
      cost required to build a radar unit. Markup is not the same as profit. Profit is the
      difference between all costs incurred and the price received for the unit where markup is
      an estimated profit.

       In this case we did not charge OJP the actual cost to build this unit. We charged OJP an
       established price. As was pointed out in recommendation 8, AKELA's actual indirect
       rates were higher than its proposed or provisional rates. The catalog price includes
       estimated rates and does not include actual cost. The catalog price does not take into
       account the actual fluctuation in both direct and indirect cost. Catalog prices eliminate
       that fluctuation and ensure the government gets the best price offered. If we are
       required to charge actual cost instead of a catalog price we would be allowed to charge
       the OJP for any increase in direct or indirect cost related to building this unit. We chose

                                              ·9·
AKELA, INC                                                     Decembe r 13,2012 - Audit Response




                                           - 52 ­
        not to do that and believe it more than offsets the cost of the mark-up and is in the best
        interest of the OJP.

   g. We believe this recommendation violates the Grant Adjustment Notice from the US
      Department of Justice; Office of Justice Programs dated July 23, 2012. The referenced
      Grant Adjustment Notice issued a final approval given by OCFMD - Financial Analyst
      approving the entire amount of $999,990 for Cooperative Agreeme nt 2009-SQ-B9-K113.
      Included in that amount is the cost for the referenced radar unit. See attachment A. We
      believe this Grant A djustment Notice makes this recommendation inv alid.

Based on the responses stated above we would ask that this recommendation be removed from
the audit report.


Recommendation 17: Ensure that AKELA implements formal written policies and procedures
requiring proper oversight and monitoring of its contractors.

Response: Concurrence.

   a.   AKELA is in the process of establishing written policies to ensure proper oversight a nd
        monitoring of its contractors.




                                              - 10 -
AKELA, INC                                                     Decembe r 13,2012 - Audit Response




                                            - 53 ­
APPENDIX A

    2009-SQ-B9-K113
 Grant Adjustment Notice




         - 54 ­
                                                                                                     lIS Dl'P....TM' ,..,. 0If JUSTlCI'
                                                                                                   OffIa 0If JlJS"TlCE PROO ...... S

                                                                                            GRAN T ADJUS TME NT NonCE
                                                                                        Grantee Information
                                _"",""
                                . . . . ._   .............. A ...... . . . -•• 931"
                                                                                                                   P ... J ectP~ ...... ,
                                                                                                                   ~_    ..... Offic. ,




                                                                                                 au oot MocIiHciotloa
                                                                           * ..... tditable I!>udQet _   ..... t cont ..... "'"""""         ~_.



                                                                I             ~e"""..                          I                ...._       d Ch'_'" e ..
                                                                                                                                                     """    I           . - - . ...
                                                                ~)452Oa                                        1~1 r.515                                    i~JEOm
                                                                ~1r.5137                                       1~·29633                                     ~ 12S/i04
                                                                i"""                                           1~" 2116                                     ~1 4&IG
                                                                i i'                                           1~14«1:l                                     ~ 14«1:l
                                                                I~HI9IXI                                       1~- 14100                                    i~4Im
                                                                i i'                                           iii'                                         jijO
                                                                i.....                                         1~-V6a3                                      i~36311
                                                                i i'                                           iii'
                                                                ,"",,'                                         1~.s4017
I~= (Sumol ""A- H)
1~" _
                                                                                                               1~50017

                                                                                                               iii'
                                                                                                                                                            i""",,
                                                                                                               iii'                                         iii'
                                                                                                               iii'                                         i i'
      ulrMl Justifk:.otloa 10. Bu     oot Modifk:.otloq
Th.   b~""~C   ohano . .   r.q ~ ~",d r ~ n.ot     . otu.1 proqr ...
up.n,l1turu 010uud by t~. oo<oo~.d p<OIJr. . .cop.
&<IJu .t_nt ncUe. dceu.one . M '",,1<Oot roo<.
n.octu,d .nth oruI . ""ro. . ~ by ch. """n. .
Con«OOt A1l4l< "ooney.


-




                                                                                                                            - 55 ­
"




    - 56 ­
APPENDIXB

2007 AKELA provisional rates forecast




               - 57 ­
                                  'M
                                  ,,-
                                               ,~

                                              "m
                                                          ..
                                                          -               " pr
                                                                         "m "-
                                                                                        ..,    -
                                                           FY2007 Cost Distribution/Rate Calc ulatio n

                                                                                                    "m ,,-
                                                                                                                 ~           ,~

                                                                                                                             "-
                                                                                                                                        .  ~
                                                                                                                                         ,,-          6•
                                                                                                                                                      "-          ,,-
                                                                                                                                                                  ,~           be.
                                                                                                                                                                               "-           ,..
                                                                                                                                                                                            ,"
DOe<I ",1:><0
or.tl ",1:><0
DOe<I ",1:><0
                ""I"'''''''"'
or.tl C<><. ConSIJIto".
                                   28,~1


                                   2S.~71
                                   ,,~
                                          •
                                               ~.m


                                               ~.~
                                               23,000
                                                     •
                                                           211,~IS


                                                           211, 81S
                                                           ,,~
                                                                    •            • " • '''"
                                                                          2O!,2fi!l

                                                                          2O!,2fi!l
                                                                          n.~
                                                                                   " '''"•
                                                                                        ,,~
                                                                                            ..
                                                                                            ..      n.~
                                                                                                                 ~"3
                                                                                                                 ,,~
                                                                                                                      • " • "n.•
                                                                                                                 25.813      2M~



                                                                                                                             a~
                                                                                                                                ..       ,,"V,
                                                                                                                                         a~
                                                                                                                                                      37.082

                                                                                                                                                      37.082
                                                                                                                                                      ,,~
                                                                                                                                                            •
                                                                                                                                                                  ,,~


                                                                                                                                                                  ,,~

                                                                                                                                                                  a~
                                                                                                                                                                         •
                                                                                                                                                                               '1 . 71~

                                                                                                                                                                                      •
                                                                                                                                                                               ll . 71 ~
                                                                                                                                                                               23.000
                                                                                                                                                                                            "'~
                                                                                                                                                                                            "'~
                                                                                                                                                                                            v,~
                                                                                                                                                                                                   •
01 .... o;,od eo..                                         ,,~                          ,,~                      ,,~
                                   '.~         ~.~                        .~                                                 .~
                                                                                                                                                      '.~                      '.~          -.~
                                                                                                    .~                                   ,,~                      ,,~

or.tl Sob<onlred
DOe<I T,_01                          .~
                                          •      ' .~
                                                     •       '.~
                                                                    •       ' .~
                                                                                 • • •    '.~         .~
                                                                                                                      • • •
                                                                                                                   ' .~        '.~         ' .~         ' .~
                                                                                                                                                            •       ' .~
                                                                                                                                                                         •       ' .~
                                                                                                                                                                                      •      12.000
                                                                                                                                                                                                   •
or.tl C<><• ....., ..",."
T.... I 00.<1 Cod<>lSo'"           11,11 1•          •
                                               Iot,aea     ':1,611
                                                                    •     1O, 2 ~
                                                                                 • • •  71,1011     70 ,n a           • • n,IU•
                                                                                                                 n,1I:1      71,1:11                  11 , _
                                                                                                                                                            •     1 7, _
                                                                                                                                                                         •         •
                                                                                                                                                                               15,ho        111,017
                                                                                                                                                                                                   •
Fringo(PlRlaxnH_h, ..
Fringo Lobor· (Aecr_ PTO)
T.... I F0"!l"

Ovwh_d lal:><o
CamoCl, _             (",b«)
H.","" R. .o.m: .. ("'I:><o)
                                   111,717
                                          •
                                          •
                                               11 ,894
                                                     •
                                                     •
                                                           ,,-•
                                                                    •
                                                                          15 ,~

                                                                                 • •
                                                                                 • •
                                                                                        18,~5       . ••~

                                                                                                                •
                                                                                                                •
                                                                                                                 I~OO3        18,1~

                                                                                                                                   •
                                                                                                                                   •
                                                                                                                                         ,,~

                                                                                                                                                •
                                                                                                                                                •
                                                                                                                                                       '.~
                                                                                                                                                            •
                                                                                                                                                            •
                                                                                                                                                                    ,..
                                                                                                                                                                         •
                                                                                                                                                                         •
                                                                                                                                                                                '.~
                                                                                                                                                                                      •
                                                                                                                                                                                      •
                                                                                                                                                                                            158,125
                                                                                                                                                                                                   •
                                                                                                                                                                                                   •
RoIo< & R"'NI
                                          •          •              •            • '.m•                    • '.m•                  •            •           •            •            •            •
                                         .. .. .. .. .. .. .. .. .. •                                                      • '.m
                                     ,~                     ,.~                                                                                                     ,.~                      ,,~
Ront + Uliiti", + T.'-II1 ....                  7,750                      7 ,750                     7.750                    7.750                   7.750                    7,750
,.~

~i<Part.                                ~
                                          •          •
                                                   ' 00        ~
                                                                    •         '00
                                                                                 • •        ~
                                                                                                           • •
                                                                                                        ' 00         ~
                                                                                                                                •~          ~              ~
                                                                                                                                                            •         ~
                                                                                                                                                                         •         ~
                                                                                                                                                                                      •       ,. ~

OUI>i<IoSo<vi< ••                       ~
                                         ,.     ,.     ,.                                                                 ••                                          ~                       ,~




                                      • • "'.. • • •
01 .... Ovorh . . d                     ~                      ~                            ~                        ~           ~          ~              ~          ~            ~          ,~

er_     br GM fringo & facility
Ovwhoo d lobo< /14.
T.... lo..t.o.d
U P~R&O Tron'"
                                      - •. '"' ... ., .,
                                    · 1,929

                                   25,5"
                                      .
                                              •
                                                ·1.] 51

                                               18,S87
                                                  ••      .-
                                                           ·1,286


                                                           ,j.4!14
                                                                    • • • ... •
                                                                          ·UilI

                                                                          23,091;
                                                                                 •
                                                                                         ·1._



                                                                                     • .,.
                                                                                        23.fI!l3
                                                                                                     · 1,4C11

                                                                                                    Z5,~27
                                                                                                                  .1,J2!i

                                                                                                                 ,,~,
                                                                                                                              ·1.686
                                                                                                                       • am• "ro'•
                                                                                                                             . 1.181
                                                                                                                                          ·1 .$3



                                                                                                                                                •
                                                                                                                                                       ·1 .522

                                                                                                                                                      12,207
                                                                                                                                                            •
                                                                                                                                                                   · 1,tl5O

                                                                                                                                                                   12.474
                                                                                                                                                                         •
                                                                                                                                                                                ·1 .374

                                                                                                                                                                               13,9(17
                                                                                                                                                                                      •
                                                                                                                                                                                            ·18,562


                                                                                                                                                                                             .~
                                                                                                                                                                                                ~




                                                  • • .
T.... lo..t.o.dE ...               :U,e33      11,262      10,3111        23,O!l!i      2:1, ~ 3    24,1211      21,!I61     22,_        22,101       12,201       12,41 4     13,001       :U0,062



                                                      "" .. ." • • • ••• ... "
                                                                            .. •   ,m

                                                  • • . .. ." • • • • ".
~,-                                                ~                                                                           .~         ,~,
                                    4,EN9                                  3,551                                  2.114                                ),241        3,476       '. ~            ~
FringoonGML.bo<
IR&O + UP ... 1:><0
                                    1,146
                                        m         m
                                                   ~
                                                       ."    ."'"
                                                             1.4 12
                                                                            ".            ,                                                 rn             ~          ~



                                                                                          ,
                                                                             -
IR&O + UP ... bot MJJ.
IR&O + UP ... 1:><0                     m         m

                                            ,.. ,.• • ,. ,•. ., .. ., ". ,. ..
                                                             1.412
Cons.b. ...
.~-
                                          •
                                      • ,.•          •              •
                                                                    •            • • •    •                          m •           •
                                                                                                                                   •            •
                                                                                                                                                •          m•            •
                                                                                                                                                                         •         .00
                                                                                                                                                                                      •            •
                                         •• ... • • ,. -
GIJI f .oiIity Adj.                     m                      m                    m                                m                      m                         m                       .~
T.... IGM                            7,201      6 ,420                     5,1 ....      ,~           4,8(12                   M'               '      '.~                      3 ,724       82. 1 40
GIJI T"n,Io ,
T.... IGM
                                        ~
                                     1,111      1,121       1,513
                                                                  • • • •  ~ , 1""       ,~           ~ .. ea     "~5
                                                                                                                               1,181
                                                                                                                               1,811      01,1'0 1     4, -         5,128       3,124
                                                                                                                                                                                                ~
                                                                                                                                                                                             101,&10

IllIIlwoIlllllu I U~ 111111

-.....
FringoExp. .....                   12.045      10,591      1M70           10 , 4 ~ 7    10.112      IMXI         10.1122      ,,~        10.591
                                                                                                                                                      "m           ,,~         1M30         12UXI
'ringoa ...                        "l-         48,452      4!!"J'1I7
                                                                           m,
                                                                          45,118        4~120       4 8824       43,311      4~969       4~           4 ~2n       42,783       4 0,475      5o~19J




                                                                                            ..
,ringoR ...                        a ..        22.1%       n~                            a~          ,~
                                                                                                                  '.~         22.n.       23.1%        22.1%       :14.0%       n.~         23.13%

o yt!hfiKI lIaIe
01-1 ~. p_
01-18 ...
                                   37,558
                                   ,,~
                                               2\1,259
                                               3O.51 ~
                                                           ".5155
                                                           ,,~
                                                                          :13,5:13
                                                                          2O!,2t115
                                                                                        "
                                                                                        ~1018
                                                                                                    3e, 157
                                                                                                    25~ii1       ""'
                                                                                                                  n'~
                                                                                                                             ,,~

                                                                                                                             2~7119
                                                                                                                                         "m
                                                                                                                                         "w.
                                                                                                                                                       22,530
                                                                                                                                                       37,082
                                                                                                                                                                  2),1~ '
                                                                                                                                                                  ~~
                                                                                                                                                                                24,537
                                                                                                                                                                               3 1.719
                                                                                                                                                                                            ~1M92
                                                                                                                                                                                            :l4~ I93
01-1 Rol.                          131_1%       115_1%     10U;%         121.1%         1:K _n.     1-10.7%      127_,,%     121_ ,,%    1 21_1%       80_1%       111_2%       11.4%      101_2'%


......
OI-IR ... · BicI                  101.:14%    101.24%     101.24%       101.24%        107.24%     101 .24%     101.24%     107. 24%


                                                                                                                               .
                                                                                                                                        101.:14%     101.24 %    101.:14 %    101.24%      101.24%


GIJI ~ .p _
GIJI B...
GIJI R...
GIJI R... • Bid
                                    .m
                                  101 ~,

                                    ,n,
                                     0_2%       ...
                                                ' , III
                                               9S,8(l)

                                                1.71%
                                                            1•• 1~
                                                           ~1, 4 31

                                                           ,~
                                                             , ~
                                                                           ~ ,1 31l

                                                                          ",.
                                                                           ."
                                                                          1. 71%
                                                                                         5,ln
                                                                                        ~1,Xl2
                                                                                          .~
                                                                                         ,~
                                                                                                      ..,
                                                                                                      M"
                                                                                                    ~,220

                                                                                                     1.1"-
                                                                                                                  ,n'
                                                                                                                 .~ ,


                                                                                                                   5.1%
                                                                                                                  ,~
                                                                                                                             ~5l4

                                                                                                                               ."
                                                                                                                              1.1"-
                                                                                                                                   ~      ,~

                                                                                                                                         9O!.31~
                                                                                                                                           U %
                                                                                                                                          I .n%
                                                                                                                                                       ,W.
                                                                                                                                                      ".00  ••• "ro
                                                                                                                                                        ' " ,n,
                                                                                                                                                       1 .11%
                                                                                                                                                                    ... ..
                                                                                                                                                                    8,210
                                                                                                                                                                                   ~
                                                                                                                                                                                 ' _1% 1_
                                                                                                                                                                                1 .11% ~
                                                                                                                                                                                        11%
                                                                                                                                                                                             ,,~

                                                                                                                                                                                           11&~I$4




                                                  ,,,                        U,           W                                     ,,,                     .."      .."                       ~
M"liI>Iior                            2.5\1                   2.11                                     W
                                                                                                                    '"                     2.42                      1.10




                                                                                          - 58 ­
APPENDIXC

2009 AKELA provisional rates forecast




               - 59 ­
                                      ~"
                                      ,,~
                                                      FeD

                                                     "-
                                                                  ..
                                                                 FY2009 Cost Di stributionlRatl! Ca lculatio n Plan



                                                                  -             •• "-
                                                                                ,,~

                                                                                   ""                       -
                                                                                                            ~              ,.
                                                                                                                          ,,~
                                                                                                                                        ~.

                                                                                                                                       "-            '"
                                                                                                                                                     ,~
                                                                                                                                                                    0<1
                                                                                                                                                                   ,,~
                                                                                                                                                                                 "~
                                                                                                                                                                                "-
                                                                                                                                                                                             b_
                                                                                                                                                                                             ,~
                                                                                                                                                                                                            ,w
                                                                                                                                                                                                            ,..

                                                                                                                                                     ..-
R... on ..                             Hi6,788       1 e1.~1      18UOl        1e1,031        1s. . n~      212;929       196,078      211 .r04     208.0137       2O!i,833     195.028      188,8 32     2,253.218

Dn<!:1,.0 ....
Di'ed I,a.........tmont
                                        l ~,S.1

                                                •
                                                      ~1,lSl

                                                            •
                                                                  ~1.151

                                                                          •
                                                                                ~1,1~1

                                                                                        •
                                                                                                54,010
                                                                                                       •
                                                                                                            ,,-      •
                                                                                                                           ".~
                                                                                                                             •
                                                                                                                                        1Il.11!!
                                                                                                                                               •       •
                                                                                                                                                                    !a,1~2

                                                                                                                                                                           •
                                                                                                                                                                                 54.153
                                                                                                                                                                                        •
                                                                                                                                                                                              52;1513
                                                                                                                                                                                                     •
                                                                                                                                                                                                           81~,1!i:1

                                                                                                                                                                                                                   •
Dn<!:1,a ....                           Jii,S.1       ~1.757      ~1,757        ~1,757          54.010       ,,~
                                                                                                                           "~           00 .175       ~ii,(J06      !a,1~2       S.. IC       52;1513      61S.1!i:1
Di'ed C... t Con ...... t               ,,~
                                                      ".~         ,,~            ,,~
                                                                                                ".~          ,,~
                                                                                                                           ".~          ".~           ,,~
                                                                                                                                                                    ".~          ".~          ,,~           ~.~
0Ih .. onct C<>"                        ,,~            lHO)       ,,~            ,,~            15,000       ,,~           15,000       15.000        ,,~           15,000       15.000       ,,~           11;1),000
DO'" SobcorfrKt
Di'edT,_                                  ,~
                                                •       '.~
                                                           •        '.~
                                                                       •          ,~
                                                                                        •        '.~
                                                                                                    •          '.~
                                                                                                                  •         ,~
                                                                                                                                  •       '.~
                                                                                                                                             •         ,~
                                                                                                                                                              •       ,~
                                                                                                                                                                           •       '.~
                                                                                                                                                                                      •        ,~
                                                                                                                                                                                                     •             •
                                                                                                                                                                                                             ~2 , 000
Di'1rdCostAqu_t
T... , OOe<lC<>.tol'S ....              11,3n
                                                •           •
                                                      111.251     aQ.~1
                                                                          •      10,257
                                                                                        •              •
                                                                                                !I2.51i1     U, 1g5  •     1l.1IrU
                                                                                                                                  •     ".115
                                                                                                                                               •     1'.M8
                                                                                                                                                             •      ".1012
                                                                                                                                                                           •     !12.M3
                                                                                                                                                                                        •            •
                                                                                                                                                                                              11I,6lI3
                                                                                                                                                                                                                   •
                                                                                                                                                                                                          1,11111.152

Fmlll
Fmlll Lobar· ;o.=uod PTO)
b.
_    .. ""C..,lribulion
FmlllAq
                                        12;218
                                          5,118
                                          ,~


                                                • •
                                                • ",.•
                                                       12.212
                                                        5,178
                                                        ,.~




                                                                 •
                                                                  1 2;D'iJ
                                                                    '.m
                                                                    ,.~

                                                                  l7.1XIO
                                                                                 12;212
                                                                                  5, 118
                                                                                  ,~


                                                                                        • • •
                                                                                                12,215
                                                                                                   0.'
                                                                                                 5,ln
                                                                                                 ,.~




                                                                                        • 23,,112•
                                                                                                             ,,~



                                                                                                               ,~

                                                                                                             l7.1XIO
                                                                                                                           12,9:lO
                                                                                                                            O~
                                                                                                                            ,~


                                                                                                                                  •
                                                                                                                                  •
                                                                                                                                        12.92'11
                                                                                                                                          ,.~
                                                                                                                                          ,.~


                                                                                                                                           •
                                                                                                                                           •
                                                                                                                                                      ,,~


                                                                                                                                                       0.'
                                                                                                                                                       ,~

                                                                                                                                                     l7,1XIO
                                                                                                                                                              •
                                                                                                                                                                     ,-
                                                                                                                                                                    12, e12

                                                                                                                                                                      ,~


                                                                                                                                                                           • •
                                                                                                                                                                           • ".-•
                                                                                                                                                                                 12.1128
                                                                                                                                                                                   ,.~
                                                                                                                                                                                   ,.~
                                                                                                                                                                                               ,m
                                                                                                                                                                                              12;531

                                                                                                                                                                                               ,~

                                                                                                                                                                                              l7,1XIO
                                                                                                                                                                                                     •
                                                                                                                                                                                                             •.•
                                                                                                                                                                                                            1~ . 297
                                                                                                                                                                                                             11.otIII
                                                                                                                                                                                                                  ~
                                                                                                                                                                                                            1"-i,000

f ..., Fringo                           b,Ul                      111,313        23.488                      11,3117       24,3111      ".m          '1,3117        24,1111                   1IJ, II58    436,383



                                                            • >0.'                                     • "m
Ovamood lobor                           31,270        25,SI!                     ~91!           15.367                     17,8211                   ll!;lI52       19,<lfl      17.957                     ~.~

                                                •                •                      •                  •                      •                          •             •            •                          •
                                                                                                                                                                                                             •.
Canu ... _tl,.obor)
H"""," RHOIr<r. . tu.bor)
                                                •           • •                         •              • •                        •                          •             •            •                          •
RoIoo:&.R..,ruit
R.., + Utili ... . T_lopI1on_
,-"
                                          O~
                                          'm
                                                •       •. • .. •
                                                          ~
                                                             '.m
                                                                       ~          .~
                                                                                  .m
                                                                                        • .. •      ~          .~
                                                                                                               '.m
                                                                                                                     •      .~
                                                                                                                            1,200
                                                                                                                                  •                    .~
                                                                                                                                                       .m
                                                                                                                                                             •        .~
                                                                                                                                                                      '.m
                                                                                                                                                                           • .. •    ~
                                                                                                                                                                                   '.~
                                                                                                                                                                                                                  ~
                                                                                                                                                                                                                   •
EMe~ani<                                  ,~
             Pori.                                                  '.~           ,~
                                                                                                               '.~          ,~                         ,~             ,~
                                                                                                                                                                                   '.~
o..t_s.rvi<..                               ~                          ~             ~                           ~              ~                         ~             ~            ~
OIh .. o-mood
C",<It lot G&,I. tingo &. Jao:I I'!
o..mood_1r4
                                          ,~

                                         ·2;912
                                                                                  ,~

                                                                                 ·2;U7
                                                                                                               ,~

                                                                                                             ·3. 12~
                                                                                                                            ,~

                                                                                                                           ·2;030                     .,=
                                                                                                                                                       ,~             ,~

                                                                                                                                                                     ·2; 278

f ...,o,.",_
B&PnR&CT.... _
Toto' o,.",""od 8<;l

GlALobor                                                5.727                                    ,.~                                                                                                         1;1).919
Fmlll on GSA L.oba                                      \,e30                                    2,1 (0
                                                                                                                                                                                                             ".~
I R&D.a&p~
,R&D . BU'        ~   ADJ.
l R&D ' B&P~
Can ... ltoInll
~-~
G&AFo<ilty"4.
T"',GSA
G&AT",,,,r..
T""GSA
Uno _ _
                                                •           •             •             •              •             •            •            •       •                   •            •            •             •
                                                                                                                                        .,m                                      .,"
.-
T...'_'&U .... _tJq>
T""Co.t

tnqreq R'H lfla !lMIl
                                         8O,3ge
                                       l!a,7.c<1
                                         ·2;fll
                                                         .-
                                                      81 ,747
                                                     182,004
                                                                  117,789
                                                                 '"m
                                                                 ·Je, !I88         ...
                                                                                81 ,747
                                                                               182,004
                                                                                               fII'I, l88
                                                                                              188.736
                                                                                               35.037
                                                                                                            1(14,883
                                                                                                            2(1.1,079
                                                                                                               '.~
                                                                                                                           M ,7:)8
                                                                                                                          188,764
                                                                                                                           .~
                                                                                                                                       167.07a
                                                                                                                                        .... 211
                                                                                                                                                    10:)"220
                                                                                                                                                    ""no
                                                                                                                                                       7,1IS1
                                                                                                                                                                    89,149
                                                                                                                                                                   191;,791
                                                                                                                                                                    .c<I,1.1
                                                                                                                                                                                111l .tIl6
                                                                                                                                                                                 :W.Ml
                                                                                                                                                                                             100,959

                                                                                                                                                                                              .,=
                                                                                                                                                                                             191,652
                                                                                                                                                                                                          1,008,1106
                                                                                                                                                                                                          2,088,751l
                                                                                                                                                                                                            lU.411l


~
F mllll~_
Fmlll Bu.
Fmlll Rot.                               ...
                                        23,4513
                                        1i,:U8
                                                      2],481
                                                      82,515
                                                       n~
                                                                  8Q.313
                                                                  81,712
                                                                   ,~
                                                                                 23,4111
                                                                                 92.~1~
                                                                                 21. ~ '!Io
                                                                                                2l.4!i1
                                                                                                n.2..e
                                                                                                .~
                                                                                                             81,Jii7
                                                                                                             8 !!,!I!I2

                                                                                                             '"'
                                                                                                                           :U,l!ii
                                                                                                                           n_
                                                                                                                           :lO.T'!\.
                                                                                                                                        ..
                                                                                                                                        " .»7
                                                                                                                                             ~
                                                                                                                                         21. 1"1,     =,
                                                                                                                                                         .,. -.
                                                                                                                                                     81,Jli7
                                                                                                                                                     8l.37i   -     U,1t!11!5

                                                                                                                                                                     21.2'110
                                                                                                                                                                                 nm
                                                                                                                                                                                  .~
                                                                                                                                                                                              SO,1I!58
                                                                                                                                                                                              14,_
                                                                                                                                                                                              IU"Io
                                                                                                                                                                                                           4J!i,JaJ
                                                                                                                                                                                                           U1 ,375
                                                                                                                                                                                                            ., ~




                                                                                                                                                         ...
°vt",... dR.!
OH b:p.                                 57,852        0.-         117,402        52;817         51 .i37      ,,~           58,1117      51.302       112;013        51,127       511.155      iO,8Jl        _ .878
~&-
~~.
                                        40,e81
                                       11101.11"1,
                                                      &I.en
                                                      12i ....
                                                                  ".,
                                                                  .~ ,
                                                                                 r.o,J~2
                                                                                12rt1\il
                                                                                                5Il.794
                                                                                                IU",
                                                                                                             63,732
                                                                                                            1&2%
                                                                                                                           Sl,r.82
                                                                                                                           it..""
                                                                                                                                        63.5211
                                                                                                                                         k"
                                                                                                                                                     61.~2
                                                                                                                                                     t50.~
                                                                                                                                                                    61,178       57.1911
                                                                                                                                                                                  uHl;
                                                                                                                                                                                              [04,199
                                                                                                                                                                                             117.2%
                                                                                                                                                                                                            6S7.811
                                                                                                                                                                                                           t :!ill ""
             ••
                                                      •.                                                                                                                                         ..
OHRa .. •                             12,Ul""        12II~1 ""   I:M.W)I,      12,Ul""        12II~ 1 ""    lXW)I,        12'Ul%       I:M~I '"     lX~l ')1,      l2lUl ""     128.~1 "     lXS1",        12II~1 ""


""'-""
G&AE><p.                                1~ ,271           ~       ,,~           29.653          15,722       111.782       IMO(         14,210       14 ,215        '4,857       1.,251
                                                                                                                                                                                              "7.1%         226,5511


                                          ...""
~&-                                    1"',487       131 ,1)40    161.002      132.351        142.1)1$      187.296       l .a.279     152.868      las,5Bl        1 ~.930      145.8J7      177.957      1,882.;m
GIARo ..                                               Uno         not;
                                                                                 22"'"          11. K           .~          • .2%         t .K          7.'"          '.1%         .R                       12.11%
GlAR... • Bid

MoJbptioor
                                       12. 11'110

                                            2.12
                                                      11.11"1,

                                                         2.15
                                                                  11.1 T"11,


                                                                      ".
                                                                                12. 1"-

                                                                                   2.h
                                                                                               12.1 1"1,


                                                                                                   '"
                                                                                                            12.11"110

                                                                                                                ut
                                                                                                                          12.1"-

                                                                                                                             2.18
                                                                                                                                        12.11'11,

                                                                                                                                           '.0
                                                                                                                                                     12. l r'11o

                                                                                                                                                         va
                                                                                                                                                                    11.11"l,

                                                                                                                                                                       2.12
                                                                                                                                                                                 12.11"11,

                                                                                                                                                                                    2.11         ...
                                                                                                                                                                                             12.1 7'1\.

                                                                                                                                                                                                          ~
                                                                                                                                                                                                            12.1 1"1,




                                                                                                 - 60 ­
                                                                                           APPENDIX IV


        DEPARTMENT OF JUSTICE RESPONSE




                                                     U.S. Depa rtme nt of Justice

                                                     Office of Jus/ice Programs

                                                     Office ofAudit, Assessment, and Management




     DEC 21 2012


MEMORANDUM TO:                  David J. Gaschke
                                Regional Audit Manager
                                San Francisco Regional Audit Office
                                Office of the Inspector Gent-Tal

FROM:                           Maureen~neberg
                                Director          ~

SUBJECT:                        Response to the Draft Audit Report, Audit a/the Office ofJustice
                                Programs, Nalionallnslilule ofJustice, Cooperative Agreements
                                with AKEU, Inc., Sonta Barbara, California

This memorandum is in response to your correspondence, dated November 15, 2012,
tran~milting the subject draft audit report rOT AKELA, Inc. (AKELA). WC consider the SUbjl'Ct
report resolved and request """tten acceptance ofthls action from your office.

The draft audit report contains 17 recommendations and $1,906,985 in questioned costs. The
following is the Office of Justice Programs' (OJP) analysis oflhe draft audit report
recommendations. For ease of review, the recommendations are restated in bold and are
fol1owed by o ur response.

L        We reco mmend tha t OJP coordinate with AKELA to ensure t hat its 2007 fin ancial
         a udit a nd all required bi-annual a udits a re conlpleted in acco rda nce wi th the special
         conditions of the 2007 an d 2009 agree men ts.

         We agree with the recommendation. We will coordinate with AKELA to ensure that its
         2007 financial audit and all required hi-annual audits are completed in accordance with
         the special conditions of the 2007 and 2009 agreements.

2.       W e r ecommend Chat OJP eoordina ce wit h AKELA to r em edy th e $ 1,906,985 in
         funds d rawn without fulfillment of the awa rds bi-a nnual or 2007 a udit
         requirements.

         We agree with the recommendation. These funds were erroneously released, when
         AKELA submitted their OeAA indirect cost rate agreement, instead ofthcir 2007
         financial audit report. We will coordinate with AKELA to remedy the $1 ,906,985 in
         funds drawdown, prior to the organi...
                                              ..ation fulfilling the awards ' bi·annual or 2007 audit
         requirements.




                                             - 61 ­
3.   We rel;:Ollllllend that OJl' coordinate with AKI<:LA to ensure that appropriate
     internal controls a rc established that include the design and implementation of
     procedures to assure that the financial management system pruvides for adeq uate
     recording a nd re porting of award rela ted activities.

     We agree with the recommendation. We win coordinate with AKELA to obtain a copy
     of procedures implemented to ensure that their financial management system provides
     adequate recording and reporting of award related activities.

4.   We recommend that OJP coordinate wit h AKELA to ensure that appropriate
     internal controls are established which include the design a nd implementation of
     procedures to prevent overla ps in autho rization, recording, and custodial duties.

     We agree with the recommendation. We will coordinate with AKELA to obtain a copy
     of procedures implemented to ensure that overlaps in authorization, recording, and
     custodial duties are prevented.

5.   We recommend that OJP coordinate with AKELA to ensure that adequate internal
     controls a re established that wo uld only allow drawdowns as reimbursements for
     expenditures that have been incurred and that are directly related to an OJP
     agreement.

     We agree with the recommendation. We will coordinate with AKELA to obtain a copy
     of procedures implemented to limit drawdowns to reimbursements for expenditures that
     have been incurred, and that are directly related to an DIP agreement.

6.   We recommend that OJP coordina te with AKELA to remedy the S1,025 in salary
     and fringe benefits expenditures related to employee timecards which were not
     properly au thorized.

     We agree with the recommendation. We will coordinate with AKELA to remedy the
     $1 ,025 in salary and fringe benefits expenditures related to employee timecards which
     were not properly authorized.

7.   We recommend that OJP coordinate with AKELA to remedy the $ 19,970 in
     una pproved or unsupported agreement-related expenditures.

     We agree with the recommendation. We will coordinate with AKELA to remedy the
     $19,970 in unapproved or unsupported agreement-related expenditures.




                                             2




                                         - 62 ­
8.    We recommend tbat OJP coordinate with AKELA to            ~medy   tbe $56,147 of indirect
      expenses cbarged in excess of approved rates.

      We agree wi th the recommendation. We will coordinate with AKELA to remedy the
      $56,1 47 of indirect expenses charged in excess of the approved rates.

9.    We recommend that OJP coordinate with AKELA to remedy the $72,982 in indir«t
      expenditures for disallowed new business, proposal, bonus, and lunch costs.

      We agree with the recommendation. We will coordinate with AKELA to reme<ly the
      $72,982 in indirect expenditures for disallowed new business, proposal, bonus, and lllllch
      costs.

10,   We recommcnd that OJP c(Jordinate with AKELA to remedy the $67,787 in
      disallowed pre-agreement indirect expenditures charged to tbe 2007 agreement.

      We agree with the recommendation. We will ooordinate with AKELA to remedy the
      $67,787 in disallowed pre-agreement indirect expenditurcs charged to the 2007
      agreement.

11.   We recommend that OJP coordinate with AKELA to ensure that a complete listing
      of accountable propcrty itcms is maintained in compliance with property
      management requirements.

      We agree with the recommendation. We will coordilUlte with AKELA to obtai n a copy
      of procedures im plemented to ensure that a complete listing of acoountable property
      items is maintained in oompliance with propeny management requirements.

12.   We recommend that OJP coordinate with AKELA to remedy tbe $82,476 in
      budgeted direct cost transfers to the indirect budget category without OJP approval
      for the 2007 agreement.

      We agree wi th the recommendation. We will coord inate with AKELA to remedy the
      $82,476 in budgeted direct cost transfers to the indirect budget category wi thout QJP
      approval for the 2007 agreement.

13.   We recommend tbat OJP coordinate with AKELA to ensure that accurate Federal
      Financial Reports (FFRs) are submitted in a timely manner.

      We agree with the recom mendation. We will coordinate with AKELA to o btain II copy
      of procedures implemented to ensure that accurate FFRs are submitted in a timely
      manner.




                                               3




                                           - 63 ­
14.    We recommend tha t O.JP coordinate with AKE LA to ensure that its p rogress
       rep orts are submitted in a timely ma nne r,

       We agree wi th the recommendation. We will coordinate with AKELA to obtain a copy
       of procedures implemented to ensure that its progress reports arc submitted in a timely
       manner.

15.    We recommend tbat OJP coordinate with AKELA to ensure that accura te data on
       its Q uartcd y Recovery Act repo rts is provided.

       We agree with the recommendation. We will coordinate with AKELA to obtain a copy
       of procedures implemented to ensure that accurate data on its Quarterly Recovery Act
       report.'> is provided.

16.    We recommend that OJP cuordinate with AKELA to remed y t he $1,1 47 in
       disallowed profits.

       We agree with the recommendation. We will coordinate with AKELA to remedy the
       $1,147 in disallowed profits.

17.    We re4:ommend that OJp coordinate with A KE LA to ensure that form a l written
       policies a nd procedures a r c implemented, requiring p ro per oversight a nd
       monitoring of its cont racto rs.

       We agree with the recommendation. We will coordinate with AKELA to obtain a copy
       of procedures implemented to ensure that fonna! written policies and procedures are
       implemented, requiring proper oversight and monitoring of il'> contractors.

We: appreciate the opportunity to review and comment on the: draft audit re:port. If you have any
questions or require additional infonnation, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.

cc:    Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office: of Audit, Assessment, and Management

       Portia Graham
       Acting Office Director, Office of Operations
       National Institute of Justice

       Charlene Hunter
       Program Analyst
       National Institute of Justice




                                                4




                                            - 64 ­
c.;:   Michael O'Shea
       Program Manager
       National Institute of Justice

       Loui:;e Duhamel, Ph.D.
       Acting Assistant Director, Audit Liaison Group
       Internal Review and Evaluation Office
       Justice Management Division

       OJP Executive Secretariat
       Control Number 20121776




                                              5




                                           - 65 ­
                                                                  APPENDIX V

              OFFICE OF THE INSPECTOR GENERAL

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO CLOSE THE REPORT


       The OIG provided a draft of this audit report to AKELA and OJP.
AKELA’s and OJP’s responses are incorporated in appendices III and IV of
this report, respectively. The following provides the OIG analysis of the
responses and summary of actions necessary to close the report.

Analysis of AKELA’s Response:

      OJP agreed with all of our recommendations. AKELA’s response
transmittal letter stated that it concurred with all recommendations except
the requirement to complete a financial and compliance audit for FY 2007.
However, in its detailed response to our recommendations, AKELA concurred
with only 8 of the 17 recommendations and expressed non-concurrence with
the remaining recommendations.

       Specifically, AKELA stated that it understands where it might be the
job of the auditor to recommend the maximum disallowance, but it does not
believe the OIG’s recommendations are either in accordance with the
relevant regulations, or in the best interest of OJP or AKELA. We disagree.
The OIG neither targets any specific level of disallowance, nor does the OIG
attempt to identify the maximum disallowance. This OIG audit report
identifies significant deficiencies within the context of the audit objectives
and presents the cost implications of those findings in accordance with
applicable rules and regulations. The findings and questioned costs that we
discussed in this report are based on audit evidence regarding AKELA’s
adherence to terms and regulations of the award, which Akela agreed to
when it accepted the grant. Further, it is in the best interest of all grantees,
OJP, and the taxpayers for award recipients to adhere to grant terms,
conditions, and regulations. This will help ensure that grant funds are
effectively and efficiently applied to the purpose for which they were
intended and authorized while minimizing the risk for waste, fraud, and
abuse.

      In its response, AKELA also advised that: (1) it believes OJP’s
approval of budget modifications for the 2009 agreement retroactively
authorized all costs that AKELA incurred under the agreement, and (2) it is
working with OJP to obtain similar approval for the 2007 agreement. AKELA
stated that it believes the approvals by OJP will resolve all questioned costs

                                     - 66 ­
associated with this audit, with the exception of those specifically
unallowable under Federal Acquisition Regulations (FAR) or the special
conditions of the agreement. We reviewed the 2009 budget modification
and found that while it does include adjustments to the indirect cost
category, it does not resolve the questioned costs enumerated in our report.
We address the implications of the GAN in more detail below within our
response for each recommendation containing questioned costs.
Additionally, as of the date of the OJP’s response to our report, we have not
received any OJP approval of retroactive adjustments associated with the
2007 agreement.

      Finally, AKELA expressed that it believes that only the costs of the
bonus and lunches are specifically unallowable and that all remaining costs
questioned due to lack of approval are allowable under FAR. During our
audit we discussed the costs requiring prior approval with OJP’s Office of
Chief Financial Officer (OCFO). It was the opinion of OJP’s OCFO that the
OJP Financial Guide and special conditions take precedence over the FAR
with regard to the 2007 and 2009 agreements.

Recommendation Number:

1.	   Resolved. OJP concurred with our recommendation to ensure that
      AKELA completes its 2007 financial audit and all required bi-annual
      audits in accordance with the special conditions of the 2007 and 2009
      cooperative agreements. OJP stated in its response that it will
      coordinate with AKELA to ensure that its 2007 financial audit and all
      required bi-annual audits are completed in accordance with the special
      conditions of the both cooperative agreements.

      AKELA stated in its response that it does not concur with our
      recommendation. Specifically, AKELA stated that it believes that an
      FY 2007 audit is not required based on language concerning audit
      requirements for commercial (for-profit) organizations in the 2008 OJP
      Financial Guide. AKELA believes that this guidance supersedes special
      conditions 28 and 48, of the 2007 and 2009 agreements, respectively,
      which require AKELA to complete and submit financial and compliance
      audits during the term of the agreement. Furthermore, AKELA stated
      that it believes the FY 2009 audit of AKELA satisfies all requirements of
      special conditions 28 and 48. AKELA also stated that evaluations and
      audits of AKELA performed by the Defense Contract Audit Agency
      (DCAA) resulted in finding that AKELA’s accounting system meets
      requirements described in the Federal Acquisition Regulations (FAR).
      Finally, AKELA stated that an audit should have been required in
      FY 2008 rather than FY 2007 as the majority of work performed for the

                                    - 67 ­
2007 agreement occurred in 2008. Based on the preceding
statements, AKELA stated that it does not believe a FY 2007 audit is
required, and requested that the OIG remove this recommendation for
AKELA to complete its 2007 financial audit and all required bi-annual
audits in accordance with the special conditions of the 2007 and 2009
agreements.

We disagree with Akela’s conclusion that an FY 2007 audit is not
required and we do not interpret the language cited by Akela as basis
for excluding Akela from the requirement. Specifically, the language
that Akela cites in its response makes it clear that commercial (for­
profit) organizations are required to have a financial and compliance
audit conducted at least every 2 years. Further, special conditions 28
and 48 of the 2007 and 2009 agreements, respectively, underscore
the bi-annual audit requirement for commercial organizations stated in
the OJP Financial Guide. Special condition 49 of the 2009 agreement
explicitly requires that AKELA submit to OJP a FY 2007 financial and
compliance audit report before it obligated, expended, or drew down
any funds for the 2009 agreement. In addition, OJP officials stated
that in order to comply with requirements of the 2007 and 2009
agreements, AKELA must complete financial and compliance audits as
set forth in the OJP Financial Guide and special conditions 28, 48, and
49. While the FY 2009 audit submitted by AKELA satisfies a portion of
the bi-annual audit requirement set forth in the special conditions, it
does not satisfy the specific requirement for the completion of a
FY 2007 audit.

As stated in our report, OJP determined that an audit from either 2007
or 2006 performed by DCAA could be accepted to satisfy the financial
and compliance audit requirement. However, AKELA did not submit to
OJP an audit performed by DCAA, but rather, it submitted a review of
AKELA’s 2006 indirect cost rate performed by DCAA. While the DCAA
report may have addressed compliance with the FAR, it was a limited
scope review and did not satisfy the requirement for a financial and
compliance audit. In addition, AKELA has not provided to the OIG an
audit performed by DCAA which satisfies the financial and compliance
audit requirement. Moreover, OJP’s OCFO advised that it considers the
OJP Financial Guide and special conditions of the agreement to be a
more restrictive requirement and thus take precedence over the FAR
with respect to these agreements. Finally, the timing and volume of
work performed in a given period are not a consideration within the
audit requirements set forth in the OJP Financial Guide and special
conditions.


                             - 68 ­
      This recommendation can be closed when we receive a copy of
      AKELA’s 2007 financial audit and all required bi-annual audits in
      accordance with the special conditions of the 2007 and 2009
      agreements.

2.	   Resolved. OJP concurred with our recommendation to remedy the
      $1,906,985 in questioned costs related to funds drawn down without
      fulfillment of the agreements’ bi-annual or 2007 audit requirements.
      OJP stated in its response that the funds were erroneously released
      and it will coordinate with AKELA to remedy the $1,906,985 in funds
      drawn down prior to the organization fulfilling the agreements’ bi­
      annual or 2007 audit requirements.

      AKELA stated in its response that it does not concur with our
      recommendation and it believes: (1) it should not be required to
      remedy the $1,906,985 in questioned costs because a FY 2007 audit
      was not required under 2008 OJP Financial Guide audit requirements
      for commercial organizations; (2) the proper remedy would be to
      follow OJP Financial Guide requirements stating that, “failure to have
      audits performed as required will result in the withholding of new
      discretionary awards and/or withholding of funds or change in the
      method of payment on active awards. . .”; (3) the $1,906,985 in
      questioned costs are allowable under FAR; (4) the 2007 and 2009
      agreements should be treated separately when determining
      questioned costs and believes only the 2007 agreement should be
      questioned; (5) OJP has received the benefit of the $1,906,985 in
      questioned costs, therefore, these funds cannot be questioned; and
      (6) the recent approval of budget modifications for the 2009
      agreement makes the OIG recommendation invalid.

      As discussed in the Financial Audit section of our report, AKELA
      expended a total of $1,906,985 without fulfilling the special conditions
      associated with the 2007 and 2009 agreements. Specifically, special
      conditions 28 and 48, of both agreements, require that AKELA
      complete bi-annual financial and compliance audits, and special
      condition 49 of the 2009 agreement explicitly requires that AKELA
      submit to OJP an FY 2007 financial and compliance audit report before
      it obligated, expended, or drew down any funds for the 2009
      agreement. Furthermore, the OJP Financial Guide states that
      commercial (for-profit) organizations are required to have a financial
      and compliance audit conducted at least every 2 years. As stated in
      the Schedule of Dollar Related Findings section of our report, these
      questioned costs may be remedied by offset, waiver, recovery of
      funds, or the provision of supporting documentation. This

                                    - 69 ­
      recommendation does not address whether costs incurred under the
      award are allowable under FAR, rather it addresses AKELA’s lack of
      compliance with special conditions of the award. Moreover, OJP’s
      OCFO advised that it considers the OJP Financial Guide and special
      conditions of the agreements to be the more restrictive requirement
      and thus takes precedence over the FAR with respect to these
      agreements. Although the recommendation covers both agreements it
      treats the agreements separately when determining the questioned
      amount which is comprised of: (1) $949,990 in funds expended under
      the 2009 agreement without fulfillment of special conditions 48 and
      49, which required AKELA to complete and submit a FY 2007 audit as
      well as bi-annual audits during the term of the agreement, and
      (2) $956,995 in funds expended under the 2007 agreement without
      fulfillment of special condition 28 which required AKELA to complete
      and submit bi-annual audits during the term of the agreement. OJP’s
      approval of budget modifications associated with the 2009 agreement
      does not affect applicability of the aforementioned special conditions,
      therefore the requirement for the 2007 audit remains intact.

      This recommendation can be closed when OJP provides us: (1) its
      plan for how it will remedy the questioned costs, and (2) evidence that
      AKELA has remedied the $1,906,985 of questioned costs.

3.	   Resolved. Both OJP and AKELA concurred with our recommendation
      to ensure that appropriate internal controls are established that
      include the design and implementation of procedures to assure that
      the financial management system provides for adequate recording and
      reporting of award related activities. OJP stated in its response that it
      will coordinate with AKELA to obtain a copy of procedures implemented
      to ensure that their financial management system provides adequate
      recording and reporting of award related activities. AKELA stated that
      it has already implemented additional internal controls to address
      issues raised by the DOJ audit. Additionally, AKELA stated that it
      installed a new timekeeping system in January 2011, and plans to add
      an experienced Chief Financial Officer to its staff.

      This recommendation can be closed when we receive AKELA’s new
      procedures that will ensure that its financial management system
      provides adequate recording and reporting of award related activities.

4.	   Resolved. Both OJP and AKELA concurred with our recommendation
      to ensure that appropriate internal controls are established which
      include the design and implementation of procedures to prevent
      overlaps in authorization, recording, and custodial duties. OJP stated

                                    - 70 ­
      in its response that it will coordinate with AKELA to obtain a copy of
      procedures implemented to ensure that overlaps in authorization,
      recording, and custodial duties are prevented. In response to the
      recommendation AKELA stated that it has already implemented
      additional internal controls to address issues raised by the DOJ audit.
      Additionally, AKELA stated that it installed a new timekeeping system
      in January 2011, and plans to add an experienced Chief Financial
      Officer to its staff.

      This recommendation can be closed when we receive AKELA’s new
      procedures to ensure that overlaps in authorization, recording, and
      custodial duties are prevented.

5.	   Resolved. Both OJP and AKELA concurred with our recommendation
      to ensure that adequate internal controls are established that would
      only allow drawdowns as reimbursements for expenditures that have
      been incurred and that are directly related to an OJP agreement. OJP
      stated in its response that it will coordinate with AKELA to obtain a
      copy of procedures implemented to limit drawdowns to
      reimbursements for expenditures that have been incurred, and that
      are directly related to an OJP agreement.

      This recommendation can be closed when we receive AKELA’s new
      procedures to ensure adequate internal controls are established that
      would only allow drawdowns as reimbursements for expenditures that
      have been incurred and that are directly related to an OJP agreement.

6.	   Resolved. OJP concurred with our recommendation that AKELA
      remedy $1,025 in questioned costs related to employee timecards
      which were not properly authorized. OJP stated in its response that it
      will coordinate with AKELA to remedy the $1,025 in questioned costs.
      AKELA stated that it believes the expenditures are allowable according
      to the FAR. AKELA further stated that it has now approved all
      timesheets during the audit period which were not previously
      approved. However, AKELA did not provide documentation of this;
      therefore we could neither assess the adequacy of such
      documentation, nor determine its implications on the questioned costs.

      In some cases, corporations may develop internal controls which are
      more restrictive than those stated in regulations applicable to the
      grant. As stated in the Agreement Expenditures section of our report,
      we examined AKELA’s timekeeping policy and found that it required
      that all employee timesheets be approved by a supervisor and signed
      by the company’s President. We believe this is an important internal

                                    - 71 ­
      control established by AKELA to ensure time charged to the
      agreements includes only approved hours worked. Therefore, we
      reviewed AKELA’s accounting system payroll data, including related
      timesheets, and determined that five timecards for two employees
      equaling $1,025 in personnel expenses (salary and related fringe
      benefits) were not signed by AKELA’s President, and therefore were
      not properly authorized.

      This recommendation can be closed when OJP provides us: (1) its
      plan for how it will remedy the questioned costs, and (2) evidence that
      AKELA has remedied the $1,025 of questioned costs.

7.	   Resolved. OJP concurred with our recommendation to remedy
      $19,970 in questioned costs related to unapproved or unsupported
      agreement-related expenditures. OJP stated in its response that it will
      coordinate with AKELA to remedy the $19,970 in questioned costs.
      AKELA stated that it believes the expenditures are allowable under the
      FAR at 48 C.F.R. Part 31. AKELA further stated that the signing of
      remittance checks by the company president constitutes approval of
      the charges. Lastly, AKELA stated that it is in the process of reviewing
      all costs during the audit period and approving them as necessary to
      meet this requirement.

      As stated in the Agreement Expenditures section of our report,
      28 C.F.R. Part 70 requires that recipients maintain financial records,
      including cost accounting records that are supported by source
      documentation. AKELA’s internal controls contained requirements
      which were more restrictive that the regulation, including requirements
      that packing lists and purchase authorizations be signed. We believe
      these internal controls provide an important tool to mitigate risk of
      inaccurate payments, errors, and potential fraud. Further, we consider
      those procedures to be part of Akela’s financial management system
      as a whole and therefore must be followed to help ensure the integrity
      of costs charged to the federal award. We therefore integrate internal
      grantee policies in our testing of transactions to ensure these internal
      controls are being followed. Our testing found transactions which
      lacked one or more of the following supporting documents: (1) a
      signed purchase authorization; (2) signed confirmation of receipt; or
      (3) a third party document, such as an invoice or receipt. We also
      noted one inaccurately recorded transaction. As a result, we
      questioned a total of $19,970 in expenditures for lacking proper
      approval and adequate support in accordance with Akela’s policies.



                                    - 72 ­
      If AKELA cannot provide adequate documentation, OJP will request
      that AKELA return the funds to the Department of Justice, adjust its
      accounting records to remove the costs, and submit a revised FFR.

      This recommendation can be closed when OJP provides us: (1) its
      plan for how it will remedy the questioned costs, and (2) evidence that
      AKELA has remedied the $19,970 of questioned costs.

8.	   Resolved. OJP concurred with our recommendation that AKELA
      remedy the $56,147 in questioned costs related to indirect expenses
      charged in excess of approved rates. OJP stated in its response that it
      will coordinate with AKELA to remedy the $56,147 in questioned costs.
      AKELA stated that it concurs with the recommendation to the extent
      that it did not obtain OJP’s approval for the increase in its indirect rate.
      However, AKELA also stated that it believes that: (1) the expenditures
      questioned are allowable under the FAR at 48 C.F.R. Part 31.2 and
      31.204; (2) OJP has received the benefit of the questioned amount,
      (3) the costs are within the agreed upon value of the cooperative
      agreement; and (4) OJP’s approval of a budget modification to indirect
      costs for the 2009 agreement, subsequent to completion of the
      agreement, makes the OIG recommendation invalid.

      As stated in the Agreement Expenditures section of our report, AKELA
      charged indirect costs at rates higher than the OJP-approved budgeted
      rate for all years. Title 28 C.F.R. 70, applicable through the special
      conditions of these agreements, requires the recipient to obtain prior
      approval for any transference of funds in or out of the indirect cost
      category in the approved budget. The recommendation to remedy the
      amount in excess of approved rates does not address: (1) whether
      the costs are in accordance with the FAR, (2) whether OJP received
      any benefit associated with the $56,147 questioned, or (3) whether
      the $56,147 charged to the agreement was within the agreed upon
      value of the cooperative agreement. The recommendation instead
      addresses whether AKELA obtained prior approval from OJP for the
      increase to the indirect rates as required under 28 C.F.R. 70. We
      found AKELA did not obtain approval.

      Subsequent to completion of the 2009 agreement, AKELA requested a
      budget modification for the increased indirect rate applied to the 2009
      agreement. OJP approved a budget modification for the 2009
      agreement. However, we did not find a request from AKELA nor OJP
      approval for the $56,147 increase in indirect costs associated with the
      2007 agreement. OJP’s approval of the budget modification associated


                                     - 73 ­
      with the 2009 agreement does not address the lack of approval for the
      increase in indirect costs associated with the 2007 agreement.

      This recommendation can be closed when OJP provides us: (1) its
      plan for how it will remedy the questioned costs, and (2) evidence that
      AKELA has remedied the $56,147 of questioned costs.

9.	   Resolved. OJP concurred with our recommendation to remedy the
      $72,982 in questioned costs related to indirect expenditures for
      disallowed new business, proposal, bonus, and lunch costs. OJP stated
      in its response that it will coordinate with AKELA to remedy the
      $72,982 in questioned costs. AKELA stated in its response that it
      concurs with the recommendation with regards to the disallowed
      bonus and lunch costs. However, AKELA stated that it believes that
      only the bonus amount allocated to AKELA’s sole officer should be
      questioned, and that the majority of the questioned costs associated
      with lunches are allowable under FAR 48 C.F.R. 31.2. Additionally,
      AKELA stated in its response that costs it defines as new business
      costs are not costs related to preparation of proposals. Specifically,
      AKELA stated that new business costs are manufacturing and selling
      type costs as defined under FAR 31.205-25 and FAR 31.205-38,
      respectively. AKELA stated that these costs are tracked separately
      from proposal costs and thus should be removed from our
      recommendation. Finally, AKELA stated that it believes: (1) approval
      should only be required for proposal costs related to federal awards as
      required under OJP Financial Guide, Part III, Chapter 15, Costs
      Requiring Prior Approval; and (2) OJP’s approval of a budget
      modification to indirect costs for the 2009 agreement includes
      approval of the proposal costs. Based on the preceding, AKELA
      requested that the recommendation be modified to address only the
      bonus paid to officers and OJP’s portion of the questioned lunches.

      Although bonuses are provided for in AKELA’s employee agreements
      and are allowed under cost principals for FAR, the OJP Financial Guide
      expressly states that bonuses paid to officers of for-profit
      organizations are “determined to be a profit or fee and are
      unallowable.” The $5,058 of questioned cost relating to officer
      bonuses represents OJP’s share of costs allocated to AKELA’s sole
      officer. As discussed in the Testing and Analysis of Indirect Costs
      section of our report, Part III, Chapter 15 of the 2008 OJP Financial
      Guide specifically requires that costs related to the preparation of
      proposals for potential future awards require approval prior to
      obligation or expenditure of funds. AKELA personnel confirmed that
      the primary purpose of labor costs defined as “new business” and

                                   - 74 ­
       “proposals” was the creation of proposals for funding and research of
       new concepts which may lend themselves to future proposals for
       federal funding; therefore, we treated both as costs related to
       research and development, and bid and proposal costs. Furthermore,
       AKELA’s accounting records did not identify new business and proposal
       costs as federal or non-federal. Therefore we relied on the statements
       of multiple AKELA personnel who identified new business costs as
       related to future proposals for federal funding. AKELA’s president also
       stated that lunches charged to the agreement were related to new
       business development. We reviewed documents submitted by AKELA
       to OJP, including the budget detail and narrative, and found that “new
       business” and “proposals” were not specifically described as part of the
       composition of budgeted indirect costs. Additionally, to the best of our
       knowledge, the provisional rate forecast in which AKELA details the
       makeup of indirect costs was not included in documents provided to
       OJP to support the budget modification. Therefore, we believe OJP did
       not specifically approve allocation of proposal or new business costs to
       the agreements.

       This recommendation can be closed when OJP provides us: (1) its
       plan for how it will remedy the questioned costs, and (2) evidence that
       AKELA has remedied the $72,982 of questioned costs.

10.	   Resolved. OJP concurred with our recommendation to remedy the
       $67,787 in questioned costs related to disallowed pre-agreement
       indirect expenditures charged to the 2007 agreement. OJP stated in
       its response that it will coordinate with AKELA to remedy the $67,787
       in questioned costs. AKELA stated in its response that the costs it
       defined as new business costs are not costs related to preparation of
       proposals. Specifically, AKELA stated that new business costs are
       manufacturing and selling type costs as defined under FAR 31.205-25
       and FAR 31.205-38, respectively. AKELA stated that these costs are
       tracked separately from proposal costs and thus should be removed
       from our recommendation. AKELA stated that there is no evidence
       that the costs were directly related to the cooperative agreements and
       voiced concerns that this recommendation duplicates questioned new
       business and proposal costs addressed in recommendation nine of our
       report. Finally, AKELA stated in its response that it believes that the
       recommendation contradicts OJP Financial Guide, Part III, Chapter 15,
       Costs Requiring Prior Approval as well as FAR 31.205-30 Pre-contract
       Costs.

       This recommendation does not address costs related to the
       preparation of proposals, but instead, it addresses costs incurred prior

                                     - 75 ­
       to the start date of the 2007 agreement. Throughout the report each
       questioned indirect cost was discussed at its full amount. However,
       unallowable indirect costs were consolidated in the Schedule of Dollar
       Related Findings with an adjustment to prevent duplication of
       questioned costs among all recommendations. As discussed in the
       Agreement Expenditures portion of our report, the 2006 OJP Financial
       Guide states that costs, which are incurred prior to the start date of
       the agreement, require OJP’s prior approval before the costs may be
       charged to the project. The language in the 2006 OJP Financial Guide
       does not exclude indirect costs from this requirement. During our
       audit, AKELA stated that the increase in indirect costs during the first
       three quarters of 2007, proceeding the agreement period, related to
       labor associated with exploring new business opportunities and
       creating bids and proposals for new contracts. The salaries and fringe
       benefit costs charged to overhead occurring prior to the initiation of
       the 2007 agreement are considered pre-agreement costs for the 2007
       agreement. AKELA did not obtain approval from OJP to apply these
       costs to the 2007 agreement.

       This recommendation can be closed when OJP provides us: (1) its
       plan for how it will remedy the questioned costs, and (2) evidence that
       AKELA has remedied the $67,787 of questioned costs.

11.	   Resolved. Both OJP and AKELA concurred with our recommendation
       to ensure that a complete listing of accountable property items is
       maintained in compliance with property management requirements.
       OJP stated in its response that it will coordinate with AKELA to obtain a
       copy of procedures implemented to ensure that a complete listing of
       accountable property items is maintained in compliance with property
       management requirements. AKELA stated that it is rewriting its
       policies to ensure compliance with property management
       requirements.

       This recommendation can be closed when we receive a copy of:
       (1) AKELA’s procedures implemented to ensure that a complete listing
       of accountable property items is maintained in compliance with
       property management requirements, and (2) an updated listing of
       AKELA’s accountable property.

12.	   Resolved. OJP concurred with our recommendation to remedy the
       $82,476 in questioned costs related to transfers of budgeted direct
       costs to the indirect budget category without OJP approval for the
       2007 agreement. OJP stated in its response that it will coordinate with
       AKELA to remedy the $82,476 in questioned costs. AKELA stated that

                                     - 76 ­
       it believes the total questioned costs of $82,476 is a duplication of
       amounts previously discussed under recommendation eight. AKELA
       also stated that it believes that: (1) the expenditures questioned are
       allowable under the FAR at 48 C.F.R. Part 31, (2) OJP has received the
       benefit of the questioned amount, (3) the costs are within the agreed
       upon value of the cooperative agreement, and (4) the recent approval
       of budget modifications for the 2009 agreement makes the OIG
       recommendation invalid.

       According to 28 C.F.R. Part 70, which is applicable based on the
       special conditions of both agreements, AKELA is required to request
       OJP’s approval in writing, before it substantially increases its budgeted
       indirect costs. We discussed applicability of the FAR with OJP and its
       officials advised that OJP considers the special conditions of the
       agreement to be a more restrictive requirement and thus take
       precedence over the FAR with respect to these agreements.
       Subsequent to completion of the 2009 award, AKELA obtained
       approval from OJP for increases to the indirect rate which AKELA
       applied to the 2009 award. However, AKELA did not obtain approval
       from OJP for the $82,476 increase in indirect costs related to the 2007
       agreement. OJP’s approval of budget modifications associated with
       the 2009 agreement does not address the lack of approval for
       increases to indirect costs for the 2007 agreement.

       Throughout our report each questioned indirect cost was discussed at
       its full amount, however unallowable indirect costs were consolidated
       in the Schedule of Dollar Related Findings in Appendix II with an
       adjustment to prevent duplication of questioned costs among
       recommendations.

       This recommendation can be closed when OJP provides us: (1) its
       plan for how it will remedy the questioned costs, and (2) evidence that
       AKELA has remedied the $82,476 of questioned costs.

13.	   Resolved. Both OJP and AKELA concurred with our recommendation
       to ensure that AKELA submits in a timely manner, accurate Federal
       Financial Reports (FFRs). OJP stated in its response that it will
       coordinate with AKELA to obtain a copy of procedures implemented to
       ensure that accurate FFRs are submitted in a timely manner.

       This recommendation can be closed when we receive a copy of
       procedures implemented to ensure that accurate FFRs are submitted in
       a timely manner.


                                     - 77 ­
14.	   Resolved. Both OJP and AKELA concurred with our recommendation
       to ensure that AKELA submits its Progress Reports in a timely manner.
       OJP stated in its response that it will coordinate with AKELA to obtain a
       copy of procedures implemented to ensure that its Progress Reports
       are submitted in a timely manner.

       This recommendation can be closed when we receive a copy of
       procedures implemented to ensure that AKELA’s Progress Reports are
       submitted in a timely manner.

15.	   Resolved. Both OJP and AKELA concurred with our recommendation
       to ensure that AKELA provides accurate data on its Quarterly Recovery
       Act reports. OJP stated in its response that it will coordinate with
       AKELA to obtain a copy of procedures implemented to ensure that
       accurate data on its Quarterly Recovery Act reports is provided.

       This recommendation can be closed when we receive a copy of
       procedures implemented to ensure that accurate data on its Quarterly
       Recovery Act reports is provided.

16.	   Resolved. OJP concurred with our recommendation to remedy
       $1,147 in disallowed profits. OJP stated in its response that it will
       coordinate with AKELA to remedy the $1,147 in disallowed profits.
       AKELA stated in its response that: (1) AKELA charged an established
       catalog price in accordance with FAR rather than the actual cost,
       (2) markup is not the same as profit, and (3) OJP’s recent approval of
       budget modifications for the 2009 agreement makes the OIG
       recommendation invalid.

       As discussed in the Compliance with Additional Award Requirements
       section of our report we found that the internally developed items,
       charged to the agreement, included markup. The OJP Financial Guide,
       as well as the special conditions of the agreement specifically prohibits
       such profits. OJP’s approval of budget modifications associated with
       the 2009 agreement does not address profits charged to the
       agreement.

       This recommendation can be closed when OJP provides us: (1) its
       plan for how it will remedy the questioned costs, and (2) evidence that
       AKELA has remedied the $1,147 of questioned costs.

17.	   Resolved. Both OJP and AKELA concurred with our recommendation
       to ensure that AKELA implements formal written policies and
       procedures requiring proper oversight and monitoring of its

                                     - 78 ­
contractors. OJP stated in its response that it will coordinate with
AKELA to obtain a copy of procedures implemented to ensure that
AKELA implements formal written policies and procedures requiring
proper oversight and monitoring of its contractors.

This recommendation can be closed when we receive a copy of
procedures implemented to ensure that AKELA implements formal
written policies and procedures requiring proper oversight and
monitoring of its contractors.




                              - 79 ­
